  DAVID L. COTTON, CPA, CFE, CGFM w CHARLES HAYWARD, CPA, CFE, CISA w MICHAEL W. GILLESPIE, CPA, CFE w CATHERINE L. NOCERA, CPA, CISA
            MATTHEW H. JOHNSON, CPA, CGFM w SAM HADLEY, CPA, CGFM w COLETTE Y. WILSON , CPA w ALAN ROSENTHAL, CPA




                                         Independent Auditor’s Report


Inspector General
U.S. Small Business Ad ministration


       We were engaged to audit the accompanying consolidated balance sheets of the U.S.
Small Business Administration (SBA) as of September 30, 2002, and 2001; the related
consolidated statements of net cost, changes in net position, and financing; and the combined
statements of budgetary resources for the years then ended. These financial statements are the
responsibility of SBA management.

        We were unable to satisfy ourselves with respect to certain of SBA’s financial statement
line items identified below (and related footnote disclosures), because SBA could not provide
sufficient evidence to support the amounts reported and disclosures made in the consolidated and
combined financial statements as of and for the years ended September 30, 2002, and 2001,
thereby limiting the scope of the audit. Details follow under the next three captions.

Disaster Loan Program Model

        As explained more fully in the accompanying Independent Auditor’s Report on Internal
Control, SBA’s disaster loan modeling contains deficiencies, and is no longer adequate for
determining the costs of disaster loans sold or reestimating the costs of loans not sold. SBA’s
existing modeling became inadequate when over $5 billion of loans were sold in Fiscal Years
2000 through 2002. SBA is evaluating its loan models to identify and correct the modeling
deficiencies. Once corrected, these deficiencies could materially impact amounts reported by
SBA in the accompanying principal financial statements. Please see the table on the following
page.

         We were unable to satisfy ourselves that the amounts identified on the following table are
fairly stated, because SBA has not completed its assessment of the disaster loan program model,
and determined the effect of the modeling deficiencies.




                                                               established 1981
                                      333 North Fairfax Street ♦ Suite 401♦ Alexandria, Virginia 22314
                          703/836/6701♦ FAX 703/836/0941♦ WWW. COTTONCPA. COM ♦ DCOTTON@COTTONCPA. COM
                                                                               Reported       Reported
                                                                               Amounts         Amounts
                                                               Financial         2002            2001
Financial Statement Line Item                                  Statement     (thousands)     (thousands)
Credit Program Receivables and Related Foreclosed
Property, Net                                                      BS       $ 5,469,485      $5,218,274
Other Liabilities                                                  BS           56,416         148,332
Cumulative Results of Operations                                   BS       (1,451,573)       (879,335)
Intragovernmental Gross Costs (Disaster Assistance
   Program)                                                       SNC          684,009         612,891
Gross Costs with the Public (Disaster Assistance Program)         SNC          330,940         404,767
Earned Revenue from the Public (Disaster Assistance
Program)                                                         SNC            257,708        128,340
Beginning Net Position                                           SCNP          (879,335)      (823,927)
Transfers In/Out Without Reimbursement                           SCNP          (263,127)      (299,683)
Spending Authority From Offsetting Collections                    SBR         2,961,112      3,428,503
Obligations Incurred                                            SBR, SF       5,084,400      4,413,660
Obligated Balance, Beginning of Period                            SBR         1,177,283        863,982
Obligated Balance End of Period (Accounts Receivable)             SBR           (72,611)       (435,674)
Obligated Balance End of Period (Accounts Payable)                SBR           258,327        922,654
Transfers In (Out)                                                 SF          (263,127)      (299,683)
Upward/Downward Reestimates of Credit Subsidy Expense              SF           542,065       (214,831)
Spending Authority From Offsetting Collections and                 SF         3,423,694      3,544,724
Recoveries


Pre -1992 Loan Guarantees

        As explained more fully in the accompanying Independent Auditor’s Report on Internal Control,
SBA did not present future expected default costs of pre -1992 loan guarantees or determine the correct
valuation of related line items in accordance with federal accounting standards. SBA made several
adjusting entries to both FYs 2002 and 2001 financial statements in an effort to correct the presentation
and related valuation of future expected default costs.

         SBA did not, however, have a calculation methodology to determine its future expected default
costs and related liability or to support adjustments made to its financial statements. Therefore, SBA
could not provide sufficient documentary evidence to satisfy us that the financial statement line items
identified on the following table are fairly stated.
                                                                         Reported         Reported
                                                                         Amounts           Amounts
                                                         Financial         2002              2001
    Financial Statement Line Item                        Statement     (thousands)       (thousands)
    Other Liabilit ies (Intragovernmental)                    BS       $ 947,039         $1,479,295
    Liabilities for Loan Guarantees                           BS        1,525,038         1,436,997
    Gross Costs with the Public (Business
    Programs)                                             SNC           1,004,517            (23,910)
    Prior Period Adjustments                              SCNP               557            (422,237)
    Other, Current-Year Liquidating Equity
    Activity                                              SCNP            (204,976)          378,045
    Other Financing Sources                                SF             (204,976)          378,045
    Change in Due to Treasury, Liquidating Funds           SF              204,976          (378,045)
    Provision for Losses on Estimated Guarantees           SF             (242,945)         (219,267)



Master Reserve Fund (MRF) Residual Liability

         As explained more fully in the accompanying Independent Auditor’s Report on Internal Control,
SBA’s sampling of MRF activity for FYs 2002 and 2001 precluded SBA from ensuring that the
projection of the MRF residual asset or liability is reliable. SBA’s sampling methodology was based on
small, judgmental samples of closed pools containing characteristics that differed in important respects
from the total population of pools; thus the samples were not entirely representative. As a result, SBA did
not sufficiently support the MRF's residual liability or asset disclosed in Note 4, Master Reserve Fund, or
the estimated MRF residual asset, valued at $68 million on SBA's September 30, 2001, balance sheet.

        We were unable to satisfy ourselves that SBA’s disclosures of the MRF residual liability for FY
2002 and asset for FY 2001 and the estimated residual asset valued at $68 million on SBA's September
30, 2001, balance sheet, are fairly stated.

                                                     *    *   *

         In our Independent Auditor’s Report dated February 22, 2002, we expressed unqualified opinions
on SBA’s principal financial statements as of and for the years ended September 30, 2001 and 2000. This
report updates our report dated February 22, 2002, with respect to SBA’s September 30, 2001, financial
statements and contains a disclaimer of opinion on such financial statements. The circumstances and
events described in the preceding paragraphs, which impact the reliability of the financial statements as of
and for the year ended September 30, 2001, caused us to issue a disclaimer on SBA’s FY 2001 financial
statements.

        We were unable to apply other auditing procedures regarding the three scope limitations
discussed above. Accordingly, we are not able to express, and we do not express, an opinion on these
financial statements.

        SBA restated its FY 2001 financial statements as explained in Note 1.V. to the financial
statements. It was unable, however, to adequately support all necessary restatements with respect to pre-
1992 loan guarantees. This matter contributed to our disclaimer of opinion, as explained above.

        We noted one additional matter causing us reservations regarding the fair presentation of SBA’s
financial statements. As discussed in Note 1.V., SBA restated its FY 2001 financial statements to
recognize subsidy expense at the time loans are disbursed rather than at the time loan commitments are
made. The FY 2001 adjustments for the guaranteed loan program were made to the allowance for subsidy
account rather than the liability for loan guarantees account. Therefore, the FY 2001 Credit Program
Receivables and Related Foreclosed Property, Net and the Liability for Loan Guarantees financial
statement line items and related footnote disclosures (FY 2002 and FY 2001) are misstated by
approximately $95 million.

        SBA management’s discussion and analysis, required supplementary stewardship information,
required supplementary information, and other accompanying information are not required parts of the
financial statements, but are additional information required by the Federal Accounting Standards
Advisory Board and OMB Bulletin No. 01-09, Form and Content of Federal Financial Statements. This
information has not been subjected to auditing procedures; accordingly, we express no opinion on this
information.

         In accordance with Government Auditing Standards, we have also issued reports dated January
29, 2003, on our consideration of SBA’s internal control and on its compliance with laws and regulations.
Those reports, which disclose material weaknesses and a reportable condition in internal control and non-
compliance with the Federal Financial Management Improvement Act, are integral parts of a report
prepared in accordance with Government Auditing Standards and should be read in conjunction with this
report in considering the results of our work.

                                                COTTON & COMPANY LLP




                                                Charles Hayward, CPA

January 29, 2003
Alexandria, Virginia
DAVID L. COTTON, CPA, CFE, CGFM w CHARLES HAYWARD, CPA, CFE, CISA w MICHAEL W. GILLESPIE, CPA, CFE w CATHERINE L. NOCERA, CPA, CISA
          MATTHEW H. JOHNSON, CPA, CGFM w SAM HADLEY, CPA, CGFM w COLETTE Y. WILSON , CPA w ALAN ROSENTHAL, CPA




                                 Independent Auditor’s Report on Internal Control


 Inspector General
 U.S. Small Business Administration


         We were engaged to audit the financial statements of the U.S. Small Business Administration
 (SBA) as of and for the years ended September 30, 2002, and 2001, and have issued our report thereon
 dated January 29, 2003, in which we disclaimed an opinion on those financial statements. These financial
 statements are the responsibility of SBA’s management.

           In planning and performing our work, we considered SBA’s internal control over financial
 reporting by obtaining an understanding of SBA’s internal control, determining if internal control had
 been placed in operation, assessing control risk, and performing tests of control. We limited our internal
 control testing to those controls necessary to achieve objectives described in Office of Management and
 Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. We did not
 test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
 Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient operations. The
 objective of our work was not to provide assurance on internal control. Consequently, we do not provide
 an opinion on internal control.

          Our consideration of internal control over financial reporting would not necessarily disclose all
 matters in internal control over financial reporting that might be reportable conditions. Under standards
 issued by the American Institute of Certified Public Accountants (AICPA), reportable conditions are
 matters coming to our attention relating to significant deficiencies in the design or operation of internal
 control that, in our judgment, could adversely affect SBA’s ability to record, process, summarize, and
 report financial data consistent with management assertions in the financial statements.

          Material weaknesses are reportable conditions in which the design or operation of one or more
 internal control components does not reduce to a relatively low level the risk that misstatements in
 amounts that would be material in relation to the financial statements being audited may occur and not be
 detected within a timely period by employees in the normal course of performing their assigned functions.
 Because of inherent limitations in internal control, misstatements, losses, or noncompliance may
 nevertheless occur and not be detected.

         We noted six matters involving internal control and its operation that we consider to be reportable
 conditions. We consider the first five to be material weaknesses under standards established by AICPA
 and OMB Bulletin No. 01-02.




                                                           established 1981
                                  333 North Fairfax Street ♦ Suite 401♦ Alexandria, Virginia 22314
                      703/836/6701♦ FAX 703/836/0941♦ WWW. COTTONCPA. COM ♦ DCOTTON@COTTONCPA. COM
1. DISASTER LOAN PROGRAM MODELING

        The cost of loans sold and re-estimates of the subsidy for remaining loans not sold cannot be
determined for the disaster loan program, because, for instance, SBA’s cash flow estimates for these
purposes are based on broad historical averages and do not recognize important differences between
characteristics of loans sold and remaining loans.

         Loans under this program are made to businesses and individuals. The characteristics of these
loans vary substantially, particularly in the term to maturity, which ranges from 5 to 30 years. SBA
estimates the cost of the loans to businesses with a single proxy loan that has characteristics equal to
overall averages of historical business loans. Similarly, SBA estimates the cost of loans to individuals
with a proxy loan based on historical averages for household loans. The use of these proxies to represent
a portfolio of substantially dissimilar loans became inadequate when over $5 billion in loans were sold in
FY 2000 through 2002.

         Because characteristics of loans sold were different from remaining loans, historical averages
ceased to fairly represent either group. Among other things, the original term of loans sold was several
years longer than loans kept. Because the cost of such loans is directly related to the term to maturity
(due to subsidized interest rates), the proxies understate the cost of loans sold (which have a relatively
longer term) and overstate the cost of loans kept (which have a relatively shorter term). Additional
differences between historical averages and characteristics of loans sold versus loans kept may arise in the
assumptions affecting defaults, recoveries, and prepayments. Analysis is needed to determine if other
dissimilarities exist between loans sold and loans kept that would affect estimates of their cost.

         The inability to determine the book value of loans sold and to re-estimate the cost of loans not
sold affects all of SBA’s financial statements, including a number of line items on each statement and
related footnote disclosures.

         At September 30, 2002, and 2001, the disaster loan allowance for subsidy account had balances
that increased the valuation of the disaster loan portfolio by over $500 million and $144 million,
respectively. These values appear to understate the cost of loans held, because the present value of future
cash flows of an interest-subsidized program, such as the disaster loan program, should be le ss than face
value, not more.

        Statement of Federal Financial Accounting Standards (SFFAS) No. 2, Accounting for Direct
Loans and Loan Guarantees, and SFFAS 18, Amendments To Accounting Standards For Direct Loans
and Loan Guarantees In Statement of Federal Financial Accounting Standards No. 2, require credit
program receivables to be stated at the present value of future cash flows. The adjustment to present
value from face value is accomplished with the subsidy calculation and resulting allowance for subsidy
account.

        SFFAS No. 2 and No. 18 and OMB Circular A-11, Preparation, Submission, and Execution of
the Budget, define the cost of loans sold (or pre-modification costs) as the present value of remaining cash
flows of such loans in the most recent budget baseline. OMB Circular A-11 defines re-estimates as:

                …revisions of the subsidy cost estimate of a cohort (or risk category) based on
                information about the actual performance and/or estimated changes in future cash
                flows of the cohort.
         Finally, SBA does not maintain formal documentation and supporting material for preparing
direct and guarantee loan subsidy estimates, in accordance with Federal Financial Accounting and
Auditing Technical Release No. 3: Preparing and Auditing Direct Loan and Loan Guarantee Subsidies
under the Federal Credit Reform Act of 1990.

Recommendations

       We recommend that SBA’s Chief Financial Officer (CFO):

1A.    Direct a coordinated effort among the Office of Financial Analysis and the Offices of Financial
       Reporting and Financial Administration to revise the approach to estimating cash flows for the
       disaster loan program. At a minimum, a new approach needs to:

       •       Support separate estimation of cash flows associated with loans sold and remaining loans,
               taking into account original term to maturity and other characteristics that influence the
               cost of the loans.

       •       Support a direct comparison between assumptions and actual experience regarding
               default costs and related recoveries, prepayments, and assets sold. The comparison
               should suggest ways to determine how well cash flow assumptions are borne out in each
               cohort and at what point the assumptions should be reexamined.

       •       Ensure that historical data used to make assumptions about future cohorts are free of
               defects.

1B.    Ensure that the Office of Financial Analysis adheres to documentation requirements of Federal
       Financial Accounting and Auditing Technical Release No. 3.

2.     LIABILITY FOR LOAN GUARANTEES AND RELATED ACCOUNTS FOR
       PRE-1992 LOAN COMMITMENTS

       We noted the following two matters regarding SBA’s liability for loan guarantees and related
accounts for pre-1992 loan commitments.

Invalid Undelivered Orders and Other Obligation Transactions

        SFFAS No. 2 requires that:

               …the liabilities of pre-1992 loan guarantees be recognized when it is more likely
               than not that the loan guarantees will require a future cash outflow to pay default
               claims.

       The standard illustrates this recognition of cost via a proprietary liability and default expense.

SBA misinterpreted SFFAS No. 2 guidance and presented the liability for future default claims
by establishing an undelivered order, as shown on the combined statement of budgetary
resources. The liability for future default claims is unfunded and should not have a related
undelivered order. Invalid recoveries of prior-year obligations were also reported on the draft
financial statements, because of SBA’s practice of estimating undelivered orders based on
outstanding commitments and making downward adjustments to reflect expected future default
costs.
        As a result of our testing, SBA made correcting entries and posted adjustments to beginning
obligated and unobligated balances on the combined statement of budgetary resources, removing invalid
undelivered orders and recovery transactions.

Calculation Methodology to Estimate the Liability for Pre -1992 Loan Guarantees

         SBA lacks a calculation methodology to estimate the liability related to future default payments
for pre-1992 loan guarantees. To present the liability for loan guarantees on its FY 2002 and FY 2001
balance sheets, SBA recorded adjusting entries using the same amounts for which it had previously
established undelivered orders. Thus, SBA could not provide sufficient documentation to support the
valuation of resulting balances. In addition, SBA did not review resulting balances once the entries were
made to assess their reasonableness as part of its quality control procedures.

         SFFAS No. 2 states that the liability of pre-1992 loan guarantees should be “reestimated each
year as of the date of the financial statements” utilizing “risk factors." In addition, OMB Circular A-123,
Internal Control Systems, states that “…documentation for transactions, management controls, and other
significant events must be clear and readily available for examination.”

         Because a calculation methodology was not used, we were unable to assess the reasonableness of
the resulting liability of $115 million for FY 2002 and $354 million for FY 2001 (restated), which
contributed to our disclaimer of opinion.

Recommendation

2.      We recommend that the CFO develop a model to estimate the Pre-1992 guarantee loan default
        liability utilizing risk factors in accordance with SFFAS No. 2; maintain sufficient documentation
        to support the assumptions in the calculation model; and request the Office of Financial
        Administration to perform a thorough analysis to ensure that liquidating fund account balances
        and account activity are accounted for and presented in accordance with SFFAS No. 2.

3.      FINANCIAL REPORTING PROCESS

         SBA made efforts to improve its financial reporting process for FY 2002. SBA also made some
progress in addressing FY 2001 recommendations to document all aspects of its financial reporting
process and prepare a financial statement compilation manual. Although improvement was noted in these
areas, SBA continued to experience widespread difficulties in producing complete, accurate, timely, and
adequately supported draft and final financial statements (including related footnotes). Additional
attention is needed to ensure a fully effective quality assurance process is documented and in place.

         SBA’s difficulties with financial reporting may be attributable to devoting insufficient resources
to the process, particularly regarding the quality control function.

        For various internal reasons, SBA did not deliver its draft financial statements by the original
agreed-upon date. Moreover, after being delivered late, we found that the draft statements and related
footnotes contained numerous and significant errors and misclassific ations. These matters are discussed
below.
Late Delivery of Financial Statements

         The Office of the Chief Financial Officer (OCFO) and Office of Inspector General (OIG)
established dates at the beginning of fieldwork by which the financial statements would be provided.
These dates were intended to ensure adequate review time and still allow SBA to meet OMB’s reporting
timeframe. OCFO was required to deliver draft and final financial statements to us on December 20,
2002, and on January 13, 2003, respectively. It delivered the draft financial statements and footnotes on
December 23, 2002, but they contained excessive errors and misclassifications, many of which SBA did
not correct until after submitting several subsequent drafts. While OCFO met the January 13 deadline, it
needed to submit five subsequent versions before January 27, when we received the final version.

Financial Statement Errors and Misclassifications

       We identified several material errors or potential misstatements within SBA’s draft financial
statements, some of which SBA was able to correct. Several examples are summarized below.

        •       A significant number of material adjustments were required to SBA’s draft financial
                statements involving 14 proprietary and budgetary general ledger accounts in regard to
                SBA’s practice of tracking loan sale administrative costs. SBA’s accounting for these
                administrative costs was not in compliance with the United States Standard General
                Ledger (USSGL).

        •       SBA modified the Financial Reporting Information System (FRIS) during FY 2002, but
                did not detect an error in its budgetary crosswalk created during these modifications in a
                timely manner. Consequently, SBA processed direct loan transactions that did not post in
                accord with the USSGL. SBA corrected these posting errors after we brought these
                errors to its attention.

        •       The balance sheet line item “Other Liabilities Public” was understated by $15,937,079,
                due to processing errors in the Joint Accounting and Administrative Management System
                (JAAMS). SBA was unable to determine why this error occurred and therefore could not
                correct it before finalizing its financial statements.

        •       SBA’s draft financial statements showed several financial statement line items with
                material fluctuations between FY 2002 and 2001. Before it submitted draft financial
                statements, SBA did not evaluate whether such fluctuations were supported by
                substantive accounting activity or were caused by error. After we brought concerns to
                management’s attention, SBA identified and corrected material errors in its draft financial
                statements.

                For instance, SBA’s offsetting receipts line items on its FY 2002 combined statement of
                budgetary resources and consolidated statement of financing were overstated, because
                SBA included inappropriate transactions in FY 2002 related to its interest on borrowings
                from Treasury. An analysis of the fluctuation between FY 2002 and FY 2001 should
                have identified this error.

        •       In the footnotes to its draft financial statements, SBA disclosed and discussed a book
                value adjustment made to the calculation of loan sale losses based on comments by
                General Accounting Office. We were unable to satisfy ourselves with respect to much of
                this draft information, because SBA did not have adequate documentation allowing us to
                test book value adjustments and total loan sale losses. SBA deleted this footnote
                disclosure in subsequent drafts.
Linkage Between Accounts and Financial Statements

         As we reported last year, SBA’s spreadsheet-based support for its financial statements crosswalks
did not provide a clear audit trail to link general ledger account balances to financial statement line items.
For example, SBA continued to use numerous mapping equations, many involving lengthy and in some
cases complex formulae, without provid ing any written documentation of what the equations
accomplished. This condition required us to review all formulae and perform some reconstruction to
determine how general ledger accounts crosswalk to the financial statements before testing the statements.
SBA prepared a “Mapping Documentation” spreadsheet, which may be a useful audit trail. We did not
use or fully review this document as part of our audit, because it was not provided before testing ended.

         OMB Circular A-123 states that “…documentation for transactions, management controls, and
other significant events must be clear and readily available for examination."

Recommendations

3A.     We recommend that SBA’s Administrator assess whether SBA has devoted sufficient resources
        to adequately address its current financial reporting shortcomings and determine if the current
        process will need re-engineering and additional resources to enable SBA to meet accelerated
        financial reporting deadlines in future years.

        We also recommend that SBA’s CFO:

3B.     Perform fluctuation analyses and determine reasons for all material changes in all financial
        statement account balances to permit inaccuracies that become obvious while performing such
        analyses to be corrected before submitting draft financial statements.

3C.     Re-engineer and enhance its quality control process and continue to develop and document its
        financial reporting process in order to avoid submitting draft financial statements and related
        footnotes containing material and widespread errors and misclassifications.

4.      FUNDS CONTROL WEAKNESSES

        SBA maintained inadequate funds control with respect to the following conditions:

        •       SBA established invalid undelivered orders in liquidating funds during FY 2002
                related to its misinterpretation of SFFAS No. 2.

        •       SBA did not return all unobligated balances in liquidating funds to the general
                fund at the end of the fiscal year.

        •       SBA incurred obligations against anticipated resources for several cohorts in the
                Business Loan Investment Fund (BLIF) financing funds and did not ensure that
                non-subsidy cost collections were only utilized to establish obligations in the
                cohort that generated the collections during FY 2002.

        •       SBA did not have adequate funds control over its loan programs’ budgetary
                resources except for those allotted in the Loan Accounting and Allotment System
                and related disbursements in the Loan Accounting System. For instance, SBA did
                not have sufficient funds control in place to ensure that guarantee loan purchase
                transactions did not exceed apportioned authority or preclude obligations from
                being incurred against anticipated budgetary resources. In addition, SBA did not
              have a mechanism to ensure that obligation transactions entered into FRIS by
              journal voucher were valid and did not exceed the lesser of apportioned authority
              or realized resources.

       •      SBA's Denver Finance Center (DFC) accountants record apportionments by
              journal voucher (JV) entry into the FRIS GL based on OMB-approved Standard
              Forms 132, Apportionment and Reapportionment Schedule, without controls
              designed to ensure that JV entries are reviewed by supervisors for accuracy before
              approving and posting.

        These shortcomings increase the risk that SBA may violate the Antidefiency Act. OMB
Circular A-11 defines a valid obligation as “a binding agreement tha t will result in outlays,
immediately or in the future." In addition, OMB Circular A-11 provides the following funds
control requirements:

              •       "You (the agency) must transfer any unobligated balance remaining at the
                      end of the fiscal year to the general fund” (citation relates to liquidating
                      funds)."

              •       "...obligations should not be incurred against any anticipated budgetary
                      resources, even if funds are apportioned” and “non-subsidy cost
                      collections may be used only for the cohort that generated the collection.”

              o “…the agency system of administrative control should be designed to keep
                obligations and expenditures from exceeding apportionments and allotments.”

Recommendations

       We recommend that the CFO review SBA’s system of funds control to ensure
compliance with OMB Circular A-11 and, at a minimum:

4A.    Develop and implement procedures to review obligated and unobligated balances
       remaining in liquidating funds at the end of the fiscal year. De-obligate unneeded
       undelivered orders and return unobligated balances to the general fund at the end of each
       fiscal year.

4B.    Develop and implement an integrated funds control system that allots the lesser of
       apportioned authority or realized resources at the fund and cohort level.

4C.    Develop and implement a process to ensure that apportionment amounts are accurately
       recorded in SBA’s GL, which includes supervisory reviews by both DFC accountants and
       the Office of Administration, Accounting Liaison and Quality Assurance Branch. These
       reviews should compare the SF 132s by fund to apportionments recorded in the FRIS GL
       to ensure accuracy.

5.     MASTER RESERVE FUND (MRF)

        SBA’s fiscal and transfer agent maintains the MRF to facilitate operation of the 7(a)
secondary market program. Borrowers with SBA-guaranteed loans make periodic payments to
lenders who in turn submit payments to the MRF for loans sold on the secondary market.
Monthly payments to secondary market certificate holders are made from the MRF, and excess
funds in the MRF are invested. Earnings on investments are us ed to fund shortages to certificate
holders caused by timing differences between loans in the pool and the life of pool certificates.
SBA owns any excess of earnings over payments to certificate holders.

        SBA expended considerable effort during FY 2002 toward enhancing accounting
disclosures of its MRF activity and in assessing the most appropriate financial statement
treatment of that activity. We believe SBA made substantial improvement within the context of
treating its MRF as a trust fund pursuant to SFFAS No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting

        In both FY 2002 and FY 2001, however, SBA used small, judgmental samples of closed
pools to estimate the excess or deficiency of MRF investment earnings over payments to
certificate holders. The characteristics of SBA’s samples differed in important respects from the
remaining population of pools. Although SBA considered its sample sizes sufficient, by using
small and non-representative samples, SBA derived conclusions about the MRF excess or
deficiency that were statistically unsound and may not be reliable, as required by Statement on
Federal Financial Accounting Concepts No. 1, Objectives of Federal Financial Reporting,
Paragraph 160, and Technical Release No. 3.

Recommendation

We recommend that the CFO develop a process for estimating SBA’s ownership in earnings
from the MRF that provides accurate, complete, and timely data for the financial statements.
SBA’s process should at least include a representative statistical sample to estimate the gain or
loss on closed pools and an extrapolation of such results, taking into account any differences in
characteristics between closed and open pools.

5.     AGENCY-WIDE INFORMATION SYSTEMS CONTROL

        SBA continued to improve internal control over its information system environment in
certain areas. Specifically, it accomplished the following during FY 2002:

       •       Conducted certification and accreditation reviews for additional major
               applications.
       •       Implemented its JAAMS, a new financial and administrative system.
       •       Rolled out the Windows 2000 operating system.
       •       Implemented a new online back- up system.
       •       Selected and began implementing a new intrusion-detection tool.

       These actions are essential elements for a sound information system control environment.
Areas for improvements, however, continue to exist in each of the following six Federal
Information System Controls Audit Manual (FISCAM) general control categories and the four
FISCAM application control areas we tested:
General Control Categories

        •       Entity-wide security program control
        •       Access control
        •       Application software development and program change control
        •       System software control
        •       Segregation-of-duty control
        •       Service continuity control

Application Control Categories (Joint Accounting and Administrative Management System
only)

        •       Authorization control
        •       Completeness control
        •       Integrity of processing and data file control
        •       Accuracy control

       SBA’s OIG will issue a separate report titled Audit of SBA’s Information System
Controls, FY 2002 that will detail findings and recommendations in this area.

STATUS OF PRIOR-YEAR FINDINGS

        As required by Government Auditing Standards, we provide the status of reportable
conditions for the prior-year audit.

Description                   Recommendation                     Status
Financial Reporting Process   1. Fully document the financial    1. Some documentation provided; not
                              reporting process.                 fully implemented. See
                              2. Prepare compilation manual      Recommendation 3C.
                              for financial reporting.           2. Some documentation provided; not
                              3. Prepare quarterly               fully implemented. See
                              agencywide financial               Recommendation 3C.
                              statements.                        3. Implemented.
Subsidy Re-Estimates          4. Upgrade cash flow modeling      4. and 5. Progress made regarding
                              tool.                              prior year finding and recommendation.
                              5. Enhance quality of subsidy      Reclassified to a management letter
                              re-estimates.                      comment. However, see new
                                                                 recommendations 1A and 1B.
Master Reserve Fund           6. Accurately estimate SBA’s       6. Implementation in progress. Se e
                              earnings within the MRF.           recommendation 5A.
Agencywide Information        Please refer to separate report.   Unresolved. Updated in separate
Systems Control                                                  report.



        In addition, we considered SBA’s internal control over required supplementary stewardship
information by obtaining an understanding of SBA’s internal control, determining if internal control had
been placed in operation, assessing control risk, and performing tests of control as required by OMB
Bulletin No. 01-02. Our objectives were not to provide assurance on internal control; accordingly, we do
not provide an opinion on such control.
         Finally, with respect to internal control related to SBA performance measures, we obtained an
understanding of the design of significant internal control relating to existence and completeness
assertions, as required by OMB Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures; accordingly we do not provide an
opinion on such control.

      We also noted certain other matters involving internal control that we will report to SBA
management in a separate letter.

       This report is intended solely for the information and use of SBA management, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.


                                                 COTTON & COMPANY LLP




                                                 Charles Hayward, CPA


January 29, 2003
Alexandria, Virginia
DAVID L. COTTON, CPA, CFE, CGFM w CHARLES HAYWARD, CPA, CFE, CISA w MICHAEL W. GILLESPIE, CPA, CFE w CATHERINE L. NOCERA, CPA, CISA
          MATTHEW H. JOHNSON, CPA, CGFM w SAM HADLEY, CPA, CGFM w COLETTE Y. WILSON , CPA w ALAN ROSENTHAL, CPA




                  Independent Auditor’s Report on Compliance with Laws and Regulations


 Inspector General
 U.S. Small Business Administration


         We were engaged to audit the financial statements of the U.S. Small Business Administration
 (SBA) as of and for the years ended September 30, 2002, and 2001, and have issued our report thereon
 dated January 29, 2003, in which we disclaimed an opinion on those financial statements.

          SBA management is responsible for complying with laws and regulations applicable to the
 agency. We performed tests of SBA's compliance with certain provisions of laws and regulations,
 noncompliance with which could have a direct and material effect on the determination of financial
 statement amounts, and certain other laws and regulations specified in Office of Management and Budget
 (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements, including requirements
 referred to in the Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our
 tests of compliance to these provisions, and we did not test compliance with all laws and regulations
 applicable to SBA.

          Under FFMIA, we are required to report whether SBA's financial management systems
 substantially complied with federal financial management system requirements, applicable federal
 accounting standards, and the United States Government Standard General Ledger at the transaction level.
 To meet this requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.
 The results of our tests disclosed instances, described below, indicating that SBA’s financial management
 systems did not substantially comply with federal financial management system requirements, applicable
 federal accounting standards, and the United States Government Standard General Ledger at the
 transaction level.

         SBA is not in substantial compliance with federal financial management system requirements, as
 follows:

           •         SBA’s core financial system is not able to provide complete, reliable, timely, and
                     consistent financial management information on programs to enable management to
                     fulfill its responsibility to the public and provide timely financial information for
                     managing current operations.

           •         Access control, segregation-of-duty, and other general control weaknesses exist, which
                     will be described in the Office of Inspector General report Audit of SBA’s Information
                     System Controls, FY 2002.




                                                                established 1981
                                      333 North Fairfax Street ♦ Suite 401♦ Alexandria, Virginia 22314
                          703/836/6701♦ FAX 703/836/0941♦ WWW. COTTONCPA. COM ♦ DCOTTON@COTTONCPA. COM
        •       Funds control deficiencies exist, discussed in our Independent Auditor’s Report on
                Internal Control in the section titled Funds Control Weaknesses.

SBA is not in substantial compliance with federal accounting standards because it cannot support:

        •       The reliability of the reported cost of loans sold and reestimates of the subsidy for the
                loans not sold, as required by Statement of Federal Financial Accounting Standards
                (SFFAS) No. 2, Accounting for Direct Loans and Loan Guarantees, and SFFAS 18,
                Amendments To Accounting Standards For Direct Loans and Loan Guarantees In
                Statement of Federal Financial Accounting Standards No . 2.

        •       Liabilities for loan guarantees committed before October 1, 1992, and related financial
                statement line items, as required by SFFAS No. 2.

        •       The reported future excess or deficit of earnings over payments in the Master Reserve
                Fund. SBA used small judgmental samples to estimate the excess or deficit of MRF
                investment earnings over payments to certificate holders from those earnings, contrary to
                Statement on Federal Financial Accounting Concept No. 1, Objectives of Federal
                Financial Reporting, paragraph 160, and Technical Release No. 3, Preparing and
                Auditing Direct Loan and Loan Guarantee Subsidies under the Federal Credit Reform
                Act of 1990.

       SBA is not in substantial compliance with the United States Government Standard General
Ledger at the transaction level, because it:

        •       Modified the Financial Reporting Information System (FRIS) during FY 2002, but did
                not detect an error in its budgetary crosswalk created during these modifications in a
                timely manner. Consequently, SBA processed direct loan transactions that did not post in
                accordance with the United States Government Standard General Ledger.

        •       Posted invalid recoveries of prior-year obligations and obligations incurred because of
                conversion problems from its Federal Financial System to its current Oracle -based
                administrative accounting system.

        The Office of the Chief Financial Officer is responsible for financial management systems within
SBA. SBA should assign priority to corrective actions for these FFMIA related-matters consistent with
requirements of OMB Circular A-50, Audit Followup.

        Results of our tests of compliance disclosed one additional instance of noncompliance with laws
and regulations that is required to be reported under Government Auditing Standards and OMB Bulletin
No. 01- 02.

         Our Independent Auditor’s Report on Internal Control describes certain funds control
shortcomings central to SBA’s mission of guaranteeing loans and providing direct loans. These funds
control shortcomings represent noncompliance with OMB Circular A-11 that we are required to report
under Government Auditing Standards and OMB Bulletin No. 01-02.

        Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our work; accordingly, we do not express such an opinion.
       This report is intended solely for the information and use of SBA management, OMB, and
Congress and is not intended to be and should not be used by anyone other than these specified parties.


                                                 COTTON & COMPANY LLP




                                                 Charles Hayward, CPA




January 29, 2003
Alexandria, Virginia
                       Appendix A




Financial Statements

       of the

U.S. Small Business
  Administration

        for

  Fiscal Year 2002
                                                                                                                    Appendix A
Introduction

This is the twelfth year that the SBA has issued Agencywide financial statements. The preparation of financial statements is a
critical aspect of ensuring the accountability and stewardship for the public resources entrusted to the SBA. Preparation of
these statements is also an important part of Agency financial management's goal of providing accurate and reliable
information that may be used to assess performance and allocate resources.

These themes of accuracy and accountability resonate particularly strongly this year because in the course of our efforts, a
critical longstanding issue was identified as undermining our ability to meet these core objectives in our financial accounting
and reporting. Specifically, apparent inconsistencies and weaknesses in the budgeting and accounting for the SBA's loan Asset
Sale program led our auditor to conclude that the SBA could not accurately state the impact of our loan sale program on the
financial statements. Because of this issue, our auditor determined that the SBA would receive a "disclaimer" on its financial
statements for FY 2002, and that it would withdraw its unqualified opinions of the previous two years. The SBA and our
auditor spent much of the audit period conducting an in depth, but inconclusive, review of this issue.

The SBA is continuing to work vigorously to resolve the issue and has teamed with the Office of Management and Budget
(OMB) and hired additional outside contract assistance to expedite the resolution process. The SBA is committed to taking
responsibility for successfully resolving this discrepancy and restoring confidence to our accounting and budgeting processes
and results.

Our independent auditor determined that the SBA d id not furnish sufficient evidence to support statement lines and related
notes with respect to two issues other than that of budgeting and accounting for asset sales. These were the calculation of a
liability for guarantees for the pre-Federal Credit Reform business loan portfolio and the estimation of residual liability related
to our Master Reserve Fund. The SBA intends to resolve both issues prior to restatement of its previous years' financial
statements.

The responsibility for the accuracy and propriety of the information contained in the principal financial statements and the
quality of internal controls rests with management. The financial statements have been prepared from the books and records of
the Agency; however they differ from the financial reports used to monitor and control budget execution. Also, the Agency
recognizes that it cannot liquidate liabilities not covered by budgetary resources without an enactment of an appropriation by
the Congress and an apportionment by the OMB.

The principal financial statements have been prepared to report the financial position and results of operations of the entity,
pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared from the books and records of
the entity in accordance with generally accepted accounting principals (GAAP) for Federal entities and the formats prescribed
by OMB, the statements are in addition to the financial reports used to monitor and control budgetary resources which are
prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government, a sovereign entity.

Balance Sheet

The Consolidated Balance Sheet summarizes the assets, liabilities, and net position as of the end of the fiscal year. For clarity
in presentation, assets and liabilities have been differentiated between those resulting from transactions between Federal
entities (intragovernmental) and those resulting from transactions between the Agency and non-Federal entities. Information
for two years is presented for the purpose of comparison.

The SBA’s total assets decreased $882.3 million or 6% from $14.3 billion as of September 30, 2001 to $13.4 billion as of
September 30, 2002. Credit program receivables and related foreclosed property increased by $251.2 million due to an
decrease in the allowance for subsidy. The SBA began selling pools of loans from its portfolios in 1999 instead of continuing
to service the loans. A single sale was completed in 2000 and two sales were made in 2001 and 2002. Advances increased by
$126.1 million because of growth in the Small Business Investment Company program.

SBA’s total liabilities decreased $277.3 million or 2 percent from $14.1 billion as of September 30, 2001 to $13.9 billion as of
September 30, 2002. Intragovernmental liabilities decreased by $282.6 million due to a decrease in the amount owed to
Treasury as a result of sales of loans from SBA’s business and disaster loan portfolios. The decrease is also attributable to a
decrease in the unfunded subsidy payable in both the business and disaster loan programs. Total other liabilities – public
increased by $5.3 million due to a increase in the loan guarantee liabilities of the business and pollution control programs.
                                                                                                                    Appendix A
SBA’s net position consists of Unexpended Appropriations and Cumulative Results of Operations. Unexpended
Appropriations reflects spending authority made available to the SBA by congressional appropriation. Cumulative Results of
Operations reflects the net results of SBA’s operations over time. As of September 30, 2002 SBA’s Net Position decreased by
$605 million due to a decrease in Cumulative Results of Operations.

Statement of Net Cost

The Consolidated Statement of Net Cost shows, by major program, how much it cost SBA to provide its services for the fiscal
year. Net cost is calculated by subtracting any earned revenues from gross cost.

In FY 2002, SBA’s Net Cost of Operations was $1.135 billion, a 147 percent increase from the FY 2001 cost of $460.2
million. The net increase of $675.3 million is the result of a $771.49 million increase in Business program costs, a $100.86
million decrease in costs for disaster assistance programs, and a $4.64 million increase in costs not assigned to programs.

The $771.49 million increase in net business program costs is due to an increase in both gross costs with the public and
intragovernmental gross costs. The increase in gross costs with the public is primarily the result of two loan asset sales during
FY 2002. The increase in intragovernmental gross costs is the result of an upward reestimate for loan subsidy in FY 2002.

The $100.86 million decrease in the net cost of disaster assistance programs is due to a increase in earned revenue from the
public, offset with a decrease in the gross costs with the public, and a decrease in intragovernmental gross costs. The decrease
in gross costs with the public is the result of a reduction in SBA’s loss allowance expense and fewer program expenses. These
reductions are attributable to a smaller credit receivable portfolio. The increase in intragovernmental gross costs is the result of
an upward reestimate for loan subsidy in FY 2002 while no reestimate was recorded in FY 2001.

FY 2002 costs were allocated between two major programs: Business programs for $790.5 million or 69.6 percent, and
disaster assistance programs for $321.4 million or 28.3 percent. A small residual amount of $23.7 million or 2.1 percent was
attributable to a “Costs Not Assigned to Programs” category that included the costs of the SBA’s Inspector General and local
initiatives funded by Congress in SBA’s budget.

Cost in Dollars
(in millions)

Fiscal             Business     Business      Business        Disaster       Disaster       Disaster         Not
Year              Intragovt.     Public        Total         Intragovt.       Public         Total         Assigned
2001                    $68.8      ($49.9)        $18.9          $145.8         $276.4         $422.2           $19.0
2002                  ($36.7)       $827.2       $790.5          $248.1          $73.2         $321.4           $23.7




Cost as Percentages
(in millions)
                                                   2001                         2002
Business                                             4.1%                        69.6%
Disaster                                            91.8%                        28.3%
Not Assigned                                         4.1%                         2.1%
Total                                              100.0%                         100%

Statement of Changes in Net Position

The Consolidated Statement of Changes in Net Position shows how SBA’s net cost of operations was funded. The statement
also shows the Agency’s net position at the beginning of the fiscal year, the major components that caused the net position to
change, and the ending net position (which is the same as “Total Net Position” shown on the Balance Sheet.) Changes were
discussed in the analysis of the Consolidated Balance Sheet.
Budgetary Resources

The Combined Statement of Budgetary Resources provides information about the funding and availability of budgetary
resources and the status at the end of the reporting period. It is the only financial statement from which data is derived
exclusively from budgetary accounts in the general ledger.
                                                                                                                   Appendix A
Data on the Combined Statement of Budgetary Resources is consistent with budget execution information on the SF 133
Report on Budget Execution Budgetary Resources, with one exception. A line item, Offsetting Receipts, has been added to the
Combined Statement of Budgetary Resources. Offsetting receipts are used to offset budgetary authority and outlays at the
Agency level and are presented in this statement to reconcile outlay information in the Budget of the United States
Government.

Total budgetary resources for SBA were $11.82 billion, a decrease of $31.99 million from FY 2001. The majority of SBA’s
funding was derived from the previous year’s unobligated balance (63 percent) and offsetting collections (25 percent).
Appropriations, borrowing authority, recoveries from prior year obligations, and non-available funding rounded out the balance
of total budgetary resources.
Funding is further pro-rated between budgetary financing (18 percent) and non-budgetary financing (82 percent). The largest
source of funding for the $9.7 billion non-budgetary portion was from FY 2001 unobligated balances of $6.1 billion. For the
$2.2 billion budgetary financing, the FY 2001 unobligated balance also provided the single greatest amount of $1.3 billion.

The following tables show a comparison of the two most recent fiscal years of total budgetary resources available for use and
the status of resources:

Budgetary Resources
(Dollars in Billions)
                                                   Spending
                                                  Authority
                                                     from                                                     Total
              Budget           Unobligated        Offsetting       Recoveries of Prior    Permanently       Budgetary
             Authority        Balance (1 Oct)     Collections      Year Obligations       not Available     Resources
2001                $2.21               $7.21            $3.43                   $0.12          ($1.11)         $11.86
2002                $3.15               $7.44            $3.16                   $0.27          ($2.20)         $11.82

Status of Budgetary Resources
(Dollars in Billions)
                                Unobligated      Unobligated         Total Status of
            Obligations          Balances        Balances Not          Budgetary
             Incurred            Available        Available            Resources
2001                 $4.41              $2.55           $4.90                   $11.86
2002                 $5.08              $3.05           $3.69                   $11.82

Statement of Financing

The Consolidated Statement of Financing shows the relationship between SBA’s net obligations drawn from budgetary
accounting and net cost of operations drawn from proprietary accounting by identifying key differences between the two
amounts. The statement shows total resources used within the reporting period and adjustments to these resources based upon
their usage to finance net obligations or net cost.

Budgetary resources obligated in FY 2002 were $5.08 billion, a 15 percent increase from FY 2001 obligations of $4.4 billion.
Spending authority from offsetting collections and recoveries of $3.42 billion was a decrease of 3 percent from the previous
year’s amount of $3.54 billion. Both of these categories (less offsetting receipts), which sum to the net obligations, can be tied
to amounts in the Combined Statement of Budgetary Resources. Net obligation, transfers in (out), and resources used to
finance items not part of the net cost of operations result in the Total Resources Used to Finance the Net Cost of Operations.

Adjustments to the Total Resources Used to Finance the Net Cost of Operations created the Total Resources Used to Finance
Net Cost of Operations of $550.2 million, a decrease of 60 percent from the previous year’s amount of $1.38 billion. The
major adjustment item was in the Components of the Net Cost of Operations that will not Require or Generate Resources in the
Current Period, i.e., ‘Upward/Downward re-estimates of Credit Subsidy Expense’. Net Cost of Operations is also shown on
the Statement of Net Cost and the Statement of Net Position.
                                                                                                   Appendix A


                                   U. S. Small Business Administration
                                     Consolidated Balance Sheet
                                     as of September 30, 2002 and 2001

(Dollars in Thousands)                                                                 Restated
                                                                        2002            2001
ASSETS

Intragovernmental Assets
  Fund Balances with Treasury (Note 2)                              $ 7,492,740        $ 8,336,655
  Accounts Receivable (Note 5)                                              529            369,313
  Advances (Note 8)                                                       4,428              2,496
Total Intragovernmental                                               7,497,697          8,708,464

Assets - Public and Other
 Cash (Note 3)                                                                 3,458           2,443
 Interest Receivable (Note 4)                                                                 68,000
 Accounts Receivable (Note 5)                                              76,974             57,188
 Credit Program Receivables and Related Foreclosed Property, Net
   (Note 6)                                                           5,469,485          5,218,274
 General Property and Equipment, Net (Note 7)                             6,828              8,518
 Advances (Note 8)                                                      379,856            253,708
Total Assets - Public                                                 5,936,601          5,608,131
Total Assets                                                        $13,434,298        $14,316,595

LIABILITIES

Intragovernmental Liabilities
  Accounts Payable                                                  $       27,992     $      698,190
  Debt (Note 10)                                                        11,138,280         10,218,415
  Other (Note 12)                                                          947,039          1,479,295
Total Intragovernmental                                                 12,113,311         12,395,900

Other Liabilities - Public
 Accounts Payable                                                       149,134            139,172
 Liabilities for Loan Guarantees (Note 6)                             1,525,038          1,436,997
 FECA Actuarial Liability (Note 11)                                      31,487             32,255
 Other (Note 12)                                                         56,416            148,332
Total Other Liabilities - Public                                      1,762,075          1,756,756
Total Liabilities                                                  $ 13,875,386        $14,152,656

NET POSITION
Unexpended Appropriations                                          $ 1,010,485         $ 1,043,274
Cumulative Results of Operations                                    (1,451,573)          (879,335)
Total Net Position                                                 $ (441,088)         $ 163,939

Total Liabilities and Net Position                                 $ 13,434,298        $14,316,595

The accompanying notes are an integral part of these statements.
                                                                                              Appendix A

                                  U. S. Small Business Administration
                               Consolidated Statement of Net Cost
                          for the periods ended September 30, 2002 and 2001

(Dollars in Thousands)                                                             Restated
                                                                   2002             2001
PROGRAMS
Business Programs

 Intragovernmental Gross Costs                                     $     (4,551)     $ 140,336
 Less: Intragovernmental Earned Revenue                                  32,148         71,489
 Intragovernmental - Net Costs                                     $    (36,699)     $ 68,847

 Gross Costs with the Public                                       $ 1,004,517       $ (23,910)
 Less: Earned Revenue from the Public                                  177,379           25,989
 Net Costs with the Public                                         $ 827,138         $ (49,899)

Net Cost of Business Programs                                      $    790,439      $ 18,948

Disaster Assistance Programs

 Intragovernmental Gross Costs                                     $    684,009      $ 612,891
 Less: Intragovernmental Earned Revenue                                 435,879        467,093
 Intragovernmental - Net Costs                                     $    248,130      $ 145,798

 Gross Costs with the Public                                                         $ 404,767
 Less: Earned Revenue from the Public                                   257,708        128,340
 Net Costs with the Public                                         $     73,232      $ 276,427

Net Cost of Disaster Assistance Programs                           $    321,362      $ 422,225

Cost not assigned to Programs                                      $      40,410     $ 26,631
Less: Earned Revenue not attributed to Programs                           16,752        7,611

Net Cost not assigned to Programs                                  $      23,658     $ 19,020

Net Cost of Operations                                             $ 1,135,459       $ 460,193

(Note 13)
The accompanying notes are an integral part of these statements.
                                                                                                                                                         Appendix A

                                                                   U. S. Small Business Administration
                                                     Consolidated Statement of Changes in Net Position
                                                            for the periods ended September 30, 2002 and 2001


(Dollars in Thousands)                                                                                                              Restated
                                                                      2002                                                           2001
                                           Cumulative Results of      Unexpended                            Cumulative Results of     Unexpended
                                                                                              Total                                                            Total
                                               Operations            Appropriations                             Operations          Appropriations
Beginning Net Position - October 1           $         (879,335)      $     1,043,274     $     163,939       $         (823,927)    $       763,154      $     (60,773)
Prior Period Adjustments                                 (1,399)                 1,956              557                 (541,451)            119,214           (422,237)
Beginning Net Position, as Adjusted                    (880,734)            1,045,230           164,496               (1,365,378)            882,368           (483,010)


Budgetary Financing Sources
Appropriations Received                                                      1,013,208        1,013,208                                      969,117             969,117
Appropriations Transferred - in/out (+/-
)                                                                                                                                             101,362             101,362
Rescissions                                                                    (5,985)           (5,985)                                     (31,972)            (31,972)
Adjustment - Cancelled Authority                                              (24,154)          (24,154)                                     (24,546)            (24,546)
Other Adjustments                                            273               (2,916)           (2,643)                                       (3,000)             (3,000)
Appropriations Used                                    1,014,898           (1,014,898)                                   850,055            (850,055)
Donations of Cash and Cash
Equivalents                                                 132                                       132                     78                                       78
Transfers - in/out Without
Reimbursement (+/-)

Other Financing Sources
Transfers - in/out Without
Reimbursement (+/-)                                    (263,127)                              (263,127)                 (299,683)                              (299,683)
Imputed Financing from Costs
Absorbed by Others                                        17,420                                 17,420                    17,741                                 17,741
Other - Current Year Liquidating
Equity Activity (+/-)                                  (204,976)                              (204,976)                  378,045                               378,045
Total Financing Sources                       $          564,620     $        (34,745)    $     529,875        $         946,236     $       160,906       $ 1,107,142

Net Cost of Operations                        $        1,135,459                    $     $ 1,135,459          $         460,193                    $      $     460,193

Ending Net Position                          $       (1,451,573)      $      1,010,485   $    (441,088)       $         (879,335)    $      1,043,274      $     163,939

(Note 14)
The accompanying notes are an integral part of these statements.
                                                                                                                                        Appendix A

                                                           U. S. Small Business Administration
                                                 Combined Statement of Budgetary Resources
                                                     for the periods ended September 30, 2002 and 2001
                                                                                                                      Restated
(Dollars in Thousands)                                               2002                                               2001
                                                                   Non-Budgetary                                      Non-Budgetary
                                                  Budgetary          Financing              Total     Budgetary         Financing             Total

BUDGETARY RESOURCES
Budget Authority
 Appropriations Received                          $1,013,208       $                    $1,013,208        $969,117    $
 Borrowing Authority                                                      2,168,244      2,168,244                             1,172,127       1,172,127
 Net Transfers (+/-)                                (29,545)                              (29,545)          72,910                                72,910

Unobligated Balance
 Brought Forward October 1                         1,306,034              6,136,976       7,443,010       1,349,649            6,045,141       7,394,790
 Net Transfers (+/-)                                                                                      (184,638)                            (184,638)

Spending Authority from Offsetting
Collections
  Earned                                            426,461               2,534,651       2,961,112        546,853             2,881,650       3,428,503
  Change in Unfilled Customer                        55,074                 140,913         195,987
   Orders
Recoveries of Prior Year Obligations                 81,373                  185,222       266,595          65,704                50,517         116,221
Permanently Not Available                          (691,455)             (1,502,472)    (2,193,927)       (297,931)             (814,429)    (1,112,360)


Total Budgetary Resources                     $ 2,161,150                $9,663,534    $11,824,684    $ 2,521,664             $9,335,006    $11,856,670


(Dollars in Thousands)                                                   2002                                              2001
                                                                       Non-Budgetary                                      Non-Budgetary
                                                  Budgetary              Financing          Total     Budgetary             Financing         Total
STATUS OF BUDGETARY
RESOURCES

Obligations Incurred                          $ 1,449,398          $      3,635,002     $ 5,084,400   $ 1,215,630         $    3,198,030    $4,413,660
Unobligated Balances Available
 Apportioned - Currently Available                  335,356               2,710,442       3,045,798        604,193             1,945,018      2,549,211
 Exempt from Apportionment                              104                                     104
Unobligated Balances Not Available                  376,292               3,318,090       3,694,382        701,841             4,191,958      4,893,799


Total Status of Budgetary
Resources                                     $ 2,161,150          $      9,663,534    $11,824,684    $ 2,521,664         $    9,335,006    11,856,670

                                                                         2002                                                 2001
RELATIONSHIP OF                                                        Non-Budgetary                                      Non-Budgetary
OBLIGATIONS TO OUTLAYS                            Budgetary              Financing          Total     Budgetary             Financing         Total

Obligated Balance, Beginning of
Period                                        $     533,173        $        644,110     $ 1,177,283   $    467,922        $      396,060    $ 863,982
Obligated Balance, End of Period
  Accounts Receivable                               (16,590)               (56,021)        (72,611)        (66,362)             (369,312)     (435,674)
  Unfilled Customer Orders from                                                           (140,913)                             (166,763)     (166,763)
    Federal Sources                                                       (140,913)
  Undelivered Orders                                464,984                 242,667        707,651         457,541               399,525        857,066
  Accounts Payable                                   75,641                 182,686        258,327         141,994               780,660        922,654
   Total Obligated Balance, End of                  524,035                 228,419                        533,173               644,110      1,177,283
     Period                                                                                752,454
Outlays
  Disbursements                                    1,426,932               4,204,614      5,631,546       1,208,178             2,868,596     4,076,774
  Collections                                      (531,307)             (3,014,707)    (3,546,014)       (670,435)           (2,850,778)   (3,521,213)
    Subtotal                                         895,625              1,189,907      2,085,532          537,743                17,818       555,561

Less: Offsetting Receipts                                                   403,861        403,861                             1,106,679      1,106,679


Net Outlays                                  $      895,625        $        786,046    $              $    537,743    $ (1,088,861)         $ (551,118)
                                                                                       1,681,671
(Note 15)

The accompanying notes are an integral part of these statements.
                                                                                                                    Appendix A

                                                     U. S. Small Business Administration
                                                 Consolidated Statement of Financing
                                              for the periods ended September 30, 2002 and 2001

(Dollars in Thousands)                                                                                                  Restated
                                                                                                      2002               2001
Resources Used to Finance Activities
Budgetary Resources Obligated
 Obligations Incurred                                                                                 $5,084,400          $4,413,660
 Less: Spending Authority from Offsetting Collections and Recoveries                                   3,423,694           3,544,724
 Obligations Net of Offsetting Collections and Recoveries                                              1,660,706             868,936
 Less: Offsetting Receipts                                                                               403,861           1,106,679
Net Obligations                                                                                       $1,256,845          $(237,743)

Other Resources
 Transfers In (Out)                                                                                    (263,127)           (299,683)
 Imputed Financing                                                                                        17,420              17,741
 Other Financing Sources                                                                               (204,976)             378,045
Net Other Resources Used to Finance Activities                                                        $(450,683)          $ 96,103
Total Resources Used to Finance Activities                                                            $ 806,162           $(141,640)

Resources Used to Finance Items not Part of the Net Cost of Operations
 Change in Undelivered Orders                                                                             270,531          (295,870)
 Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost of Operations                2,534,651          2,714,888
 Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                       (3,070,232)        (1,318,358)
 Adjustments to Net Obligated Resources That Do Not Affect Net Cost of Operations                           9,085            418,935

Total Resources Used to Finance Items Not Part of the Net Cost of Operations                          $ (255,965)         $1,519,595

Total Resources Used to Finance the Net Cost of Operations                                              $550,197          $1,377,955

Components of the Net Cost of Operations that will not Require or Generate
 Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
 Change in Annual Leave Liability                                                                 $          754    $            587
 Increase in Unfunded Liability for Claims against SBA                                                                           800
 Upward/ Downward reestimates of Credit Subsidy Expense                                                  542,065           (214,831)
 Change in Revenue Receivable from Public                                                                 64,399            (26,687)
 Change in Due to Treasury - Liquidating Funds that is not an obligation                                 204,976           (378,045)
 Provision for Losses on Estimated Guarantees                                                          (242,945)           (219,267)
 Unfunded Employee Benefits                                                                                (661)               1,670

Total Components of the Net Cost of Operations that will not Require or Generate
 Resources in the Current Period                                                                  $      568,588    $      (835,773)

Components Not Requiring or Generating Resources
 Depreciation or Amortization                                                                              2,521
 Bad Debt Expense - Noncredit Reform                                                                      14,153            (81,989)

Total Components of Net Cost that will Not Require or Generate
 Resources                                                                                                16,674            (81,989)
Total Components of Net Cost of Operations Not Requiring or Generating
 Resources in the Current Period                                                                  $      585,262    $      (917,762)
Net Cost of Operations                                                                            $    1,135,459    $        460,193

(Note 16)

The accompanying notes are an integral part of these statements.
                                                                                                    Appendix A

                                      U. S. Small Business Administration
                                         Notes to Financial Statements
                               for the periods ended September 30, 2002 and 2001

(Dollars in Thousands)

NOTE 1. Significant Accounting Policies

A.      Basis of Accounting and Presentation

        These financial statements have been prepared to report the financial position and results of operations of
        the Small Business Administration (SBA), as required by the Chief Financial Officers Act of 1990. They
        have been prepared from the books and records of the SBA in accordance with generally accepted
        accounting principles (GAAP) of the United States and the form and content for entity financial statements
        specified by the Office of Management and Budget (OMB). The financial statements differ from financial
        reports that are prepared pursuant to OMB directives for the purpose of reviewing and controlling the
        SBA's use of budgetary resources.

        The statements reflect transactions recorded on both a proprietary accrual accounting basis and a budgetary
        obligation basis. Under the accrual method, revenues are recognized when earned and expenses are
        recognized when liabilities are incurred, without regard to receipt or payment of cash. Budgetary
        accounting recognizes legal obligation of funds often in advance of the proprietary accrual. Budgetary
        accounting facilitates compliance with legal constraints and controls over the use of Federal funds.

        Established under the terms of the Federal Advisory Committee Act (FACA), as amended, the Federal
        Accounting Standards Advisory Board (FASAB), after consideration, recommends Federal accounting
        concepts and standards to the Secretary of Treasury, the Director of OMB and Comptroller General of the
        General Accounting Office (GAO) co-principals of the FASAB. If the principals do not object, after ninety
        days the recommendation becomes authoritative.

        On October 19, 1999 the Council of American Institute of Certified Public Accountants (AICPA)
        recognized the FASAB as the body designated to establish generally accepted accounting principals for
        Federal Governmental entities under Rule 203, "Accounting Principles", of the AICPA's Code of
        Professional Conduct. In April 2000, the AICPA through Statement on Auditing Standards (SAS) No. 91,
        Amendment to Statement on Auditing Standards No. 69, The Meaning of Present Fairly in Conformity with
        Generally Accepted Accounting Principles in the Independent Auditor's Report, established the generally
        accepted accounting principles hierarchy for Federal financial reporting entities. The Federal hierarchy is:

        FASAB Statements and Interpretations, plus AICPA and Financial Accounting Standards Board (FASB)
        pronouncements if made applicable to Federal Governmental entities by FASAB Statements or
        Interpretations;

        FASAB Technical Bulletins and the following pronouncements if specifically made applicable to Federal
        Governmental entities by the AICPA and cleared by the FASAB, AICPA Industry Audit and Accounting
        Guides and AICPA Statements of Position;

        AICPA Accounting Standard Executive Committee Practice Bulletins if specifically made applicable to
        Federal Governmental entities and cleared by the FASAB, as well as Technical Releases of the Accounting
        and Auditing Policy Committee of the FASAB; or

        Implementation guides published by the FASAB staff, as well as practices that are widely recognized and
        prevalent in the Federal Government.
                                                                                                Appendix A

B.   Reporting Entity

     The SBA was created as an independent Federal Agency by the Small Business Act of 1953. Its mission is
     to maintain and strengthen the Nation's economy by aiding, counseling, assisting, and protecting, the
     interests of small business, and to help businesses and families recover from disasters.

     The SBA operates through the execution of its congressionally approved budget primarily with eight major
     programs. The SBA's budget consists of annual, multi-year and no-year appropriations covering salaries
     and expenses and various program and trust fund activities.

     1. Major Programs Supporting SBA's Mission

     Helping Business Succeed with Business Programs

             The Business Loan program, through an assortment of guarantee and direct programs, is the SBA's
             largest financial assistance program. Banks and certain non-bank lenders make loans, which are
             guaranteed by the SBA, at percentages varying from 50 percent to 90 percent.

             The Development Company program provides small business owners the means to expand,
             modernize and compete by providing long-term fixed asset financing through Certified
             Development Companies.

             The Small Business Investment Company program addresses the need for venture capital by
             small and emerging enterprises through Small Business Investment Companies.

             The Surety Bond Guarantees program assists small business contractors in obtaining the required
             bid, performance and payment bonds for construction, service, and supply contracts.

             The Business Development program assists small disadvantaged businesses with marketing
             support, management and technical assistance.

             The Government Contracting program ensures that small businesses receive a fair share of
             Government contracts and subcontracts.

             The Entrepreneuria l Development program provides assistance to small businesses in the form of
             training and counseling.

     Helping Businesses and Families Recover from Disaster with Disaster Assistance Programs

             The Disaster Loan program provides assistance to victims of physical disasters such as
             earthquakes, floods and hurricanes by extending direct loans to individuals and businesses.

     2. Fund Accounting Structure

     The SBA's financial activities are accounted for by the following fund types:
                                                                                                 Appendix A


     Trust Fund

     The Business Assistance Trust Fund is funded by donations and used to provide services in support of
     carrying out the mission of counseling, assisting and protecting the interest of small businesses.

     Program Funds

     The Disaster Program Fund is funded by appropriations and provides resources to support subsidy and
     administration costs of disaster related loans.

     The Business Program Fund is funded by appropriations and provides resources to support subsidy and
     administration costs of business related loans.

     Administrative Funds

     The Salaries and Expenses Fund is funded by appropriations which are used to support the administrative
     costs incurred in carrying out the missions and functions of the SBA.

     The Office of Inspector General Fund is funded by appropriations which are used to support the operation
     of the Office of Inspector General in carrying out the missions and functions of the SBA.

     Revolving Fund

     The Surety Bond Guarantees Revolving Fund provides assistance to small business contractors in obtaining
     bid, performance and payment bonds for construction, service and supply contracts.

     Liquidating Funds

     The Pollution Control Equipment Contract Guarantee Fund supports the costs associated with the credit
     portfolio of pre-October, 1991, pollution control equipment loans and guarantees being liquidated by the
     Agency.

     The Disaster Loan Liquidating Fund supports the costs associated with the credit portfolio of pre-October,
     1991, disaster assistance loans being liquidated by the Agency.
A
     The Business Loan Liquidating Fund supports the costs associated with the credit portfolio of pre -October,
     1991, business loans and guarantees being liquidated by the Agency.

     Financing Funds

     The Business Direct Loan Financing Fund supports the credit costs associated with the portfolio of post-
     September, 1991, direct business loans which are funded by Treasury borrowings and subsidy received
     from the program fund.

     The Business Guaranteed Loan Financing Fund supports the credit costs associated with the portfolio of
     post-September, 1991, guaranteed and defaulted business loans and receives subsidy from the program
     funds.

     The Disaster Direct Loan Financing Fund supports the credit costs associated with the portfolio of post-
     September, 1991, direct disaster loans which are funded by Treasury borrowings and subsidy received fro m
     the program fund.

C.   Budgets and Budgetary Accounting for Loan Programs

     Each SBA loan disbursement is financed by a combination of two sources: one for the long term cost of the
     loan and another for the remaining non-subsidized portion of the loan. Congress provides one-year, multi-
                                                                                                     Appendix A

     year, and no-year appropriations to cover the estimated long term costs of SBA loans. The long term costs
     are defined as the net present value of the estimated cash outflows associated with the loans less the
     estimated cash inflows. The portion of each loan disbursement that does not represent long term cost is
     financed under a permanent indefinite authority to borrow funds from the U.S. Department of the Treasury.
     Congress also annually adopts an appropriation bill limiting the dollar amount of obligations that can be
     made for direct loans and loan guarantees.

     A permanent indefinite appropriation is available to finance the costs of subsidy reestimates that occur after
     the year in which a loan is disbursed. Modification of loans or loan guarantees require that budget
     authority for the additional cost be appropriated, if not available from existing appropriations or other
     budgetary resources.

D.   Intragovernmental Assets and Liabilities

     The Consolidated Balance Sheet presentation distinguishes “intragovernmental” assets and liabilities from
     “other” assets and liabilities. Intragovernmental assets and liabilities are those that arise from transactions
     between Federal entities. Other assets and liabilities are either receivable from or payable to the public; or
     represent investments of the SBA in property, plant and equipment or other items.

E.   Assets

     The assets are resources which the SBA has authority to use in its operations. The authority to use funds in
     the SBA's operations means that the SBA management has the authority to decide how funds are used, or
     management is legally obligated to use funds to meet entity obligations.

F.   Credit Program Receivable Sales

     The SBA continued a program initiated in 1999 to sell pools of loans from its loan portfolio rather than
     servicing such loans itself. Sale two was held during FY 2000 with over 26,000 loans sold and an unpaid
     principal balance in excess of $1.2 billion. During FY 2001, the SBA completed sales three and four
     selling 49,000 loans with unpaid principal balance of $2.3 billion. During FY 2002, sales five and six were
     completed selling 59,000 loans with unpaid principal balance of $1.25 billion.

     Gains and losses from the sale of credit program receivables are recognized as cost of operations for the
     pre-1992 loans and reflected in the Liquidating Funds. For post-1991 loans the gains and losses are
     included in the adjustment for the subsidy allowance in the Financing Funds.

G.   Fund Balances with Treasury and Cash

     The SBA does not maintain cash in commercial bank accounts except for certain limited program activities
     that are not funds for the Government (See Note 1H). Cash receipts and disbursements are processed by
     the U.S. Department of the Treasury. Fund Balances with Treasury and cash are comprised primarily of
     appropriated, revolving and trust funds, which are available to make expenditures and pay liabilities.
     Amounts are included in Fund Balances which are unavailable for obligation because they relate to expired
     authority. (See Notes 2 & 3)

H.   Interest Receivable-Master Reserve Fund

     The 7(a) secondary market program, one of the Business Loans programs, is administered by an agent of
     the SBA. The agent receives collections from banks on 7(a) loans guaranteed by the SBA and makes
     payments to secondary holders who have investments in pools of 7(a) guaranteed loans. These payments
     flow through the Master Reserve Fund (MRF) and accumulated interest is the property of the SBA, but
     future payments, required to the holders of 7(a) secondary market securities, could exceed the principal
     amount of the investment. The interest, as well as the principal in the investment, is mostly invested in
     Treasury guaranteed securities. The SBA's policy, revised in FY 2001, was to record the residual portion
     of the interest as interest receivable and an offsetting deferred credit. In FY 2002 this policy was revised
     again according to SFFAS 7 requirements on trust funds to present the MRF results in a footnote to the
                                                                                                         Appendix A

     financial statement (see Note 4 for additional information) without recording MRF results on the face of the
     financial statements.

I.   Accounts Receivable

     Accounts Receivable - Intragovernmental is reimbursements due from other Federal agencies and funds.
     The SBA did not record an interest receivable from Treasury for FY 2002 because the interest due was
     received before the end of the fiscal year. The SBA records intrafund receivables and payables between
     program and financing funds for subsidy reestimates.

     Accounts Receivable which are not intragovernmental primarily represent amounts due from participating
     financial institutions for guarantee fees, and advances from asset sale purchasers. The balance in the
     Salaries and Expenses fund represents receivables due from Agency employees or vendors for net credits
     from various transactions. See Note 5.

     The SBA provides no allowance for uncollectible or unrecoverable accounts because of the historic
     immateriality of losses due to stringent collection policy and the ability to offset against the lender's share
     of collections, payments to employees, or payments to vendors.

J.   Credit Program Receivables and Related Foreclosed Property

     Accounting for Loan Assets Obligated Prior to FY 1992.
     Loans, similar receivables, and related accrued interest are recorded at book value less an allowance for
     uncollectible amounts.

     Accounting for Loan Assets Obligated After FY 1991.
     Loans, similar receivables, and related accrued interest are recorded at book value. An allowance for
     subsidy is recorded to reduce the value of credit receivables and foreclosed property to net present value as
     required by the Federal Credit Reform Act of 1990 and Statement of Federal Financial Accounting
     Standards (SFFAS) #2. The allowance account is valued at the present value of subsidized costs described
     in note 6.

K.   General Property and Equipment

     The buildings in which the SBA operates are provided by the General Services Administration, which
     charges the SBA rent that approximates the commercial rental rates for similar properties. Equipment is
     capitalized at cost, if the initial unit acquisition cost is $50,000 or more and service life is at least five years.
     Equipment with an acquisition cost of less than $50,000 or less than five years of life is expensed when
     purchased. Equipment is depreciated using the straight-line method over five years. Computer related
     equipment is capitalized at cost, if the initial unit acquisition cost is $50,000 or more and has a service life
     of at least three years. Computer related equipment and software with an acquisition cost of less than
     $50,000 or less than three years of life is expensed when purchased. Computer related equipment and
     software is depreciated using the straight-line method over three years.

     Software for internal use, whether internally developed, contractor developed, or commercial off-the-shelf
     (COTS), is capitalized at cost, if the initial unit acquisition cost is $250,000 or more and has a service life
     of at least three years. For internally developed software, the capitalizable costs are the direct and indirect
     costs incurred after the SBA has completed all planning, designing, coding and testing activities that are
     necessary to establish that the software can meet design specifications up to the point of final acceptance.
     Internally developed, contractor developed, and COTS software with a development or acquisition cost of
     less than $250,000 or less than three years of life is expensed when purchased or developed. Software for
     internal use is depreciated using the straight-line method over three years. Enhancements are capitalized
     when it is more likely than not that they will result in significant additional capabilities. Costs that do not
     meet the capitalization criteria are expensed when incurred.
                                                                                                     Appendix A

L.   Advances

     Intragovernmental
     The SBA advances payments semiannually to the Federal Financing Bank for loans guaranteed under
     Section 503 of the Small Business Act. The advances are liquidated by receipt of the next installment
     payments from state or local development companies. To the extent that those installments may not repay
     advances, balances remain collectible from the development companies.

     Public
     Advances are made to honor the SBA's timely payment requirement of principal and interest due for
     debentures in the SBA’s Section 503, Section 504 and SBIC programs.

     The Section 503 program was discontinued in 1986 and replaced by the Section 504 program which is a
     part of the Development Company program described Note 1.B.1.

     The Section 504, Certified Development Company (CDC) program provides growing businesses with long-
     term, fixed-rate financing for major fixed assets, such as land and buildings. Typically, a 504 project
     includes a loan secured with a junio r lien from the CDC, backed by a 100 percent SBA-guaranteed
     debenture, covering up to 40 percent of the project cost. The maximum SBA debenture generally is
     $750,000 but may be as much as $1,000,000 in some cases.

     The Small Business Investment Company (SBIC) program provides long term loans and or venture capital
     to small firms. SBICs are privately owned and operated investment companies, which are licensed and
     regulated by the SBA. The SBA guarantees SBIC debentures and preferred securities sold to private
     investors. The SBA also guarantees non-voting preferred stock and participating securities.

M.   Liabilities

     Liabilities are the recognition of probable future outflow of resources that results from past transactions. If
     the transaction was between Federal entities, the liability is an Intragovernmental Liability.

     Liabilities are recognized when incurred even if budgetary resources are not available to pay them.
     Liabilities must not be paid until budgetary resources become available. Liabilities funded by budgetary
     resources as of the reporting date are considered to be liabilities covered by budgetary resources, while
     liabilities not funded as of that date are considered to be liabilities not covered by budgetary resources.
     (See Note 9).

N.   Debt

     Borrowings payable to the Treasury result from loans provided by the Treasury to fund a portion of the
     Agency's credit reform financing accounts activity. The financing accounts are required to make periodic
     principal payments to Treasury based on the collections of loans receivable.

     Borrowings payable to the Federal Financing Bank (FFB) result from a sale of loans to the FFB of loans
     from the Business Liquidating Account. As the FFB collects the principal of these loans the SBA's liability
     to FFB is reduced as well as an offsetting Loan Receivable. (See Note 10).

O.   Liability for Loan Guarantees

     There are two components to the Agency’s liability for guaranteed loans: liabilities for losses on pre-1992
     loans, and liabilities on post-1991 loans made under the Federal Credit Reform (FCR) legislation. For pre-
     1992 guarantees, the amount is an estimate of losses on guarantees outstanding based on historical
     experience. For post-1991 loans, the liability is based on the present value of future cash flows related to
     the guarantees, as described in Note 6-L.
                                                                                                      Appendix A

P.   Contingencies

     The SBA is a party in various administrative proceedings, legal actions, environmental suits and claims
     brought against it. In the opinion of the SBA management and legal counsel, the ultimate resolution of
     these proceedings, actions, suits and claims will not materially affect the financial position or results of the
     SBA operations. The likelihood of loss to the SBA ranges from remote to probable for these litigation
     matters. (See Note 12).

Q.   Annual, Sick and Other Leave

     A liability for annual leave is accrued as it is earned and reduced as leave is taken. Each year, the balance
     in the accrued annual leave is adjusted to reflect current pay rates. To the extent current or prior year
     appropriations are not available to fund annual leave earned but not taken, funding will be obtained from
     future appropriations.

     Sick leave and other types of non-vested leave are expensed as taken.

R.   Employee Health and Life Insurance Benefits

     SBA employees are eligible to participate in contributory Federal Employees Health Benefit program
     (FEHB) and the Federal Employees Group Life Insurance program (FEGLI). The SBA matches employee
     contributions to each program. These contributions are recognized as current operating expenses.

S.   Employee Pension Benefits

     SBA employees participate in either the Civil Service Retirement System (CSRS) or the Federal
     Employees' Retirement System (FERS). For employees participating in CSRS, 7.0 percent of their gross
     earnings was withheld and transferred to the Civil Service Retirement and Disability Fund. SBA
     contributes an additional 8.51 percent of the employee gross earnings to the CSRS Retirement and
     Disability Fund. For employees participating in FERS, SBA withholds .8 percent of gross earnings, and
     matches the withholding with a 10.7 percent employer contribution. This total is transferred to the Federal
     Employees' Retirement Fund.

     The CSRS and FERS retirement funds are administered by the Office of Personnel Management (OPM).
     SBA contributions to the CSRS and FERS are recognized as current operating expenses. SBA's
     contribution for FY 2002 is $7.8 million and for FY 2001 is $7.4 million to CSRS and for FY 2002 $14.7
     million and for FY2001 $13.2 million to FERS. The imputed cost for the two programs was $6.4 million
     for FY 2002 and $7.3 million for FY 2001.

     FERS participants are also covered under the Federal Insurance Contribution Act (FICA) and are subject to
     FICA withholdings. The SBA makes matching contributions for FICA, recognized as operating expenses.

     On April 1, 1987, the Federal Government initiated the Thrift Savings Plan (TSP), a defined contribution
     retirement savings and investment plan for employees covered by either CSRS or FERS. CSRS
     participants may contribute up to 7 percent of their gross pay (8 percent beginning October, 2002) to the
     TSP, but there is no Agency matching contribution. FERS participants may contribute up to 12 percent (13
     percent beginning October, 2002) of their gross pay to the TSP. A primary feature of FERS is that it offers
     a savings plan to SBA employees which automatically contributes 1 percent of basic pay, matches any
     employee contributions dollar for dollar for the first 3 percent of pay, and for each dollar of the next 2
     percent of pay contributions are matched 50 cents on the dollar. The SBA contributions to the TSP are
     recognized as current operating expenses. The maximum amount that either FERS or CSRS employees
     may contribute to the TSP is $11,000 ($12,000 beginning January, 2003). Employee and employer
     contributions to the TSP are transferred to the Federal Retirement Thrift Investment Board.

     The SBA recognizes the full cost of providing future CSRS and FERS pension benefits to covered
     employees at the time the employees' services are rendered. The pension expense recognized in the
     financial statements equals the service cost for covered SBA employees, less amounts contributed by these
                                                                                                  Appendix A

     employees. Service cost represents the actuarial present value of benefits attributed to services rendered by
     covered employees during the accounting period. The measurement of service cost requires the use of
     actuarial cost methods to determine the percentage of the employees' basic compensation sufficient to fund
     their projected pension benefit. These percentages (cost factors) are provided by the OPM and applied by
     the SBA to the basic annual compensation of covered employees to arrive at the amount of total pension
     expense to be recognized in the SBA's financial statements.

     The excess of total pension expense over the amount contributed by the Agency and by the SBA's
     employees represents the amount of pension expense which must be financed directly by the OPM. The
     SBA recognized as non-exchange revenue an imputed financing source equal to the excess amount. The
     SBA does not report in its financial statements FERS or CSRS assets, accumulated plan benefits or
     unfunded liabilities, if any, applicable to its employees.

T.   Other Retirement Benefits

     SBA employees eligible to participate in the FEHB and the FEGLI may continue to participate in these
     programs after their retirement. SBA recognizes a current operating expense for the future cost of these
     and other retirement benefits (ORB) at the time the employee's services are rendered. This ORB expense
     must be financed by the OPM, and is offset by the SBA through recognition of an imputed financing
     source. Using cost factors supplied by the OPM, the SBA recorded ORB expense and imputed financing
     sources of $11.1 million for FY 2002 and $9.8 million for FY 2001.

U.   Revenues and Other Financing Sources

     The SBA recognizes as revenues and other financing sources appropriations used, earned revenue,
     donations, imputed financing sources, and non-expenditure transfers.

     The SBA receives the majority of the funding needed to support its operations through congressional
     appropriations. The Agency receives one year, multi-year and no year appropriations that may be used,
     within statutory limits, for operating expenditures. A financing source, appropriations are considered used
     when good or services financed by an appropriation are provided, regardless of when paid. This is reported
     in the Consolidated Statement of Changes in Net Position.

     Earned revenue results from exchange transactions that benefit both parties. The SBA has earned revenues
     such as loan guarantee fees, interest on its loan portfolios, and interest on fund balances. These revenues
     are presented on the Consolidated Statement of Net Cost as reductions to operating cost.

     Donations are treated as revenues and reported in the Consolidated Statement of Changes in Net Position.

     Imputed financing sources are operating costs of the SBA which are paid for through funds appropriated to
     other Federal entities. These include items such as employee pension benefits and post-employment
     benefits for former employees. The imputed financing source is reported in the Consolidated Statement of
     Changes in Net Position while the associated cost is reflected in the Consolidated Statement of Net Cost.

     Non-expenditure transfers of appropriated amounts or of assets without reimbursement included items such
     as transfers to Treasury of downward subsidy reestimates and unobligated balances from liquidating
     accounts. These transfers are included in the Consolidated Statement of changes in Net Position.

V.   Accounting Changes

     In FY 2002, SBA corrected an error for the recording of the subsidy expense associated with direct loans
     and loan guarantees. SBA had been recording subsidy expense at the time of commitment to make loans
     rather than the time loans were actually disbursed. Recognizing subsidy expense at the time loans are
     disbursed resulted in a prior period adjustment, to accurately state the beginning balances in the subsidy
     cost allowance account, a reduction of $119 million for periods prior to FY 2001 and a reduction of $41
     million for FY 2001. The SBA follows SFFAS #21, Reporting Corrections of Errors and Changes in
                                                                                                      Appendix A

      Accounting Principles. In accordance with that guidance, the SBA has restated its FY 2001 financial
      statements. See Note 17.

      For FY 2002, the new Oracle Financial accounting system allowed SBA to more accurately account for its
      reimbursable activity. This was a significant change in accounting practice from previous years. Due to
      this change in accounting practice, SBA began recording balances in a number of reimbursable accounts in
      FY 2002. Specifically, SBA began to use accounts such as Unfilled Orders With Advance,
      Reimbursements and Other Income Earned - Collected, Advances From Others, and Revenue From
      Services Provided. Thus 2002 financial statements reflect balances in these accounts, whereas previous
      years statements did not. In addition, a prior period adjustment of $557,000 was made to reclassify
      Unexpended Appropriations balances that were determined to be reimbursable as Cumulative Results of
      Operations to reflect the reimbursable nature of the net position balance. The SBA did not restate its
      financial statements for this prior period adjustment.

      The SBA had recorded, as valid obligations amounts that it expected to outlay for honoring guarantee
      agreements in its liquidating funds. This recordation as undelivered orders was incorrect. The recognition
      was changed to an unfunded guarantee liability. The effect of this change was $354 million. The financial
      statements for FY 2001 have been restated to reflect this change.

      SBA determined that the non-entity assets of $1.8 billion included in prior balance sheets should be
      included in Treasury's statements instead of the SBA. The SBA has restated its 2001 fund balances with
      Treasury to reflect this change for purposes of comparative reporting.

NOTE 2. Fund Balances with Treasury
     (Dollars in Thousands)

      Fund Balances                                            FY 2002                       FY 2001
      Entity
          Trust Fund                                               $         278                  $          214
          Liquidating Funds                                              492,845                       1,012,884
          Financing Funds                                              6,256,952                       6,497,449
          Revolving Fund                                                  26,706                          26,089
          Appropriated Funds                                             715,959                         800,019
            Total Fund Balances                                    $   7,492,740                  $    8,336,655

      Status of Fund Balances with Treasury
      Unobligated Balance
          Available                                            $       3,045,904              $        2,549,211
          Unavailable                                                  3,694,382                       4,610,161
      Obligated Balance Not Yet Disbursed                                752,454                       1,177,283
          Total                                                $       7,492,740              $        8,336,655

NOTE 3. Cash

      Cash held outside the U.S. Treasury consists of undeposited funds under the control of the SBA at field
      offices or lock boxes.

      (Dollars in Thousands)
                                                        FY 2002                            FY 2001
      Cash                                            Entity Assets                      Entity Assets
         At Field                                         $              3,391               $             2,095
         Offices
         Lock boxes                                                         67                               348
                                                           $             3,458                $            2,443
                                                                                                         Appendix A

NOTE 4. Master Reserve Fund

The Small Business Secondary Market Improvements Act of 1984, P.L. 98-352 (Improvement Act) provided
statutory authority for the 7(a) secondary market, and for the pooling of 7(a) loans, as well as the central registration
of secondary market loans and improved disclosure of 7(a) secondary market loans. The Improvement Act also
provided for SBA's regulation of brokers and dealers operating in the 7(a) secondary market and for reporting to
Congress on secondary market results. The 7(a) secondary market has approximately $12 billion of currently
outstanding investments held by 7(a) secondary holders.

The Master Reserve Fund (MRF) is maintained by the SBA’s fiscal agent as part of its administration of the 7(a)
secondary market program. The intent of Congress in the Improvement Act was for the SBA to develop the MRF as
a mechanism to fund the 7(a) secondary market pooling program at no cost to the Federal taxpayer. The MRF also
provides for the pooling of loans having terms that vary within a range prescribed by the SBA, while the secondary
investors have a fixed term for their investment that is the term of the longest loan in the pool. The MRF is funded
by the timing of cashflows in the 7(a) secondary market program, including the principal portion of the borrower's
first payment for pooled loans and float on borrower payments prior to payment to the secondary holders. It used to
fund the SBA's guarantee of the timely payment of principal and interest owed to the 7(a) secondary market holders
and to pay expenses of the MRF trustee and investment advisor.

The composition of the MRF at September 30, 2002 and September 30, 2001 is shown in the following table. A
reconciliation of the change in MRF assets from September 30, 2002 and September 30, 2001 is also shown.
                                                                                                       Appendix A

                                               Master Reserve Fund
            (Dollars in Thousands)
            Receivables                                                            09/30/02            09/30/01
              Securities                                                       $       218,000       $     228,630
              Net Interest                                                               13,183             12,338
              Other Income                                                                                    1,350
              Interest Sold/Matured                                                          12                 528
              Total Receivables                                               $        231,195       $     242,846
            Payables                                                                       (12)                (57)
            Government Bonds
              Treasury Bonds                                                           166,835           102,582
              Treasury Notes                                                           644,537           691,811
              Total Government Bonds                                          $        811,372       $   794,393
            Cash Equivalents - Money Market Funds                                       27,444            20,490
            Short Term Investments - Treasury Bills                                    143,384           136,978
              Net Assets                                                      $      1,213,383       $ 1,194,650

            Master Reserve Fund                                               $      1,213,383       $ 1,194,650




                                               Reconciliation of MRF Assets
            (Dollars in Thousands)
            Beginning Net Assets - 09/30/01                                   $      1,194,650
            Receipts
            Regular Loan Payments                                                    1,181,896
            Prepayments                                                              1,194,960
            Defaults from SBA or the Lender                                            561,200
            Other Receipts                                                              10,099
            Earned Income                                                               61,138
            Net Realized Gain (Loss)                                                    (2,708)
              Total Receipts                                                  $      3,006,585
            Disbursements
            Regular Payments to Investors                                            1,229,997
            Prepayments                                                              1,194,960
            Defaults                                                                   561,200
            Expenses                                                                     1,695
              Total Disbursements                                             $      2,987,852
            Ending Net Assets - 09/30/02                                      $      1,213,383


A legal opinion has provided the SBA with the right to the interest earned by the MRF. At September 30, 2002
there was approximately $551 million (compared to $490 million for FY 2001) of interest earned by the MRF since
its inception in 1986. This amount, however, has and will be reduced to fund the cost of providing timely payment
of the amounts owed to secondary market investors. Currently the SBA estimates that there is a potential future
deficit in the MRF in the range of zero to $18.3 million required to liquidate the obligations in the 7(a) secondary
market. This estimate is disclosed here, but not included in the SBA's financial statements as a contingent liability
because the likelihood of the liability is remote. This potential deficit contrasts with FY 2001 where an estimated
$68 million of interest receivable was included in SBA's FY 2001 financial statements.

The SBA determined this estimate through an analysis of a representative sample of 50 closed MRF pools
performed by the SBA's fiscal agent. Although the fiscal agent does not maintain an accounting of MRF funds on
an individual pool basis, the actual mechanics of MRF activity were used by the fiscal agent to model the results of
the 50 closed pools. The results of this analysis were extrapolated to the approximately 1000 closed pools, and then
projected to the approximately 5000 open pools in the MRF to provide the estimate of the potential future deficit of
                                                                                                       Appendix A

the MRF to meet 7(a) secondary market timely payment obligations. This estimate depends on future economic
conditions that affect the MRF earnings and obligations.

The SBA, however, expects that changes that can be made to the 7(a) secondary market program will provide
additional MRF income to eliminate the potential future deficit in the MRF should it become more imminent.
Curing the cause of the deficit will meet the intent of Congress that the program should not create an additional cost
or liability to the Government and that the SBA's secondary market pooling program should have no budgetary
repercussions. However, since the SBA would be required to finance a future shortage in the MRF, in the remote
circumstances that it would materialize, the SBA has agreed to work with the Office of Management and Budget to
include the MRF under Federal Credit Reform reporting procedures in the future.

NOTE 5. Accounts Receivable

Accounts receivable are displayed by type. Additional information about the types of receivables is contained in
Note 1I.

Cash adjustments are Funds with Treasury transactions that Treasury has not applied as of the Balance Sheet date or
Treasury transactions that SBA has not recorded due to timing differences.

                                                     By Type
                                                   FY 2002                                   FY 2001
                                     Intragovernmental       Public             Intragovernmental               Public
Subsidy Receivable from                  $    1,129,078             $               $      587,013                       $
Program Fund to Financing Fund
Interest Receivable From                                 0                                   369,285
Treasury
Other Intrafund Receivables                        72,610                                     66,361
Overpayment to Secondary                                                 578                                         340
Guarantee Fees Receivable                                             49,003                                      27,585
Examination Fees -SBIC                                                    76                                          99
Administrative Receivables                                               617                                         268
Refunds                                                                4,140                                       4,433
Revenue Receivable                                                     1,001
Receivable due from Banks                                             12,432                                       1,599
Cash Adjustments                                                       8,990                                      21,641
Receivable due from Purchasers
- Asset Sales                                                            137                                        115
Reimbursables                                          529
Miscellaneous                                                              0                     28               1,108
    Sub-Total Before                     $      1,202,217            $76,974        $     1,022,687                   $
    Eliminations                                                                                                 57,188
Eliminations -Intrafund                                 $                                          $
Receivables                                      (72,610)                                   (66,361)
Eliminations - Subsidy                        (1,129,078)                                  (587,013)
    Balance Sheet Total                  $            529        $    76,974        $        369,313        $    57,188

NOTE 6. Credit Program Receivables and Related Foreclosed Property

A.      The SBA operates the following loan and loan guarantee programs:
        (1) Business, Direct
        (2) Disaster, Direct
        (3) Business, Guarantee
        (4) Pollution Control, Guarantee

Direct loan obligations and defaulted guarantee commitments made prior to 1992 are reported net of an allowance
for estimated uncollectible loans or estimated losses. Loss allowances represent estimates of what the SBA does not
expect to recover on its loans receivable obligated prior to FY 1992. These allowances are based upon historical
                                                                                                           Appendix A

experience, current market conditions and an analysis of individual assets. They are unfunded and merely attempt to
reflect the anticipated uncollectible loans receivable.

Direct loan obligations or loan guarantee commitments made after FY 1991, and the resulting direct loans or loan
guarantees, are governed by the Federal Credit Reform Act. The Act provides that the present value of the subsidy
costs (i.e., interest rate differentials, interest subsidies, estimated delinquencies and defaults, fee offsets, and other
cash flows) associated with direct loans and loan guarantees be recognized as a cost in the year the loan or loan
guarantee is made.

An analysis of loans receivable, loan guarantees, liability for loan guarantees, and the nature and amounts of the
                                                                                                  Appendix A

E.   Subsidy Expense for Direct Loans by Program and Component Post-1991 Loans:
     (Dollars in Thousands)

                                 Subsidy Expense for New Direct Loans Disbursed FY 2002

          Direct
                          Interest
          Loan                                   Defaults           Fees             Other               Total
                         Differential
        Programs
                          $                  $                                                       $
        (1) Business     2,005              142                 $                $                  2,147

        (2) Disaster     109,905            110,274           (22,729)          16,790              214,240
                         $                  $                  $                 $                  $
        Total            111,910            110,416           (22,729)          16,790              216,387

                                 Subsidy Expense for New Direct Loans Disbursed FY 2001

          Direct
                          Interest
           Loan                                  Defaults           Fees             Other          Total
                         Differential
        Programs
        (1) Business     $       3,262       $          48      $                $                   $   3,310
        (2) Disaster           105,155              40,847          (14,306)             9,903         141,599
        Total            $     108,417       $      40,895      $   (14,306)     $       9,903       $ 144,909

                                          Reestimates FY 2002
           Loan                                                   Technical         Total
        Programs                                                Reestimates      Reestimates
        (1) Business                                            $     1,139      $     1,139
        (2) Disaster                                                (78,210)         (78,210)
           Total                                                $ (77,071)       $ (77,071)

                                          Reestimates FY 2001
           Loan                                                  Technical          Total
        Programs                                                Reestimates      Reestimates
        (1) Business                                            $     (3,001)    $     (3,001)
        (2) Disaster                                                 498,251         498,251
           Total                                                $   495,250      $ 495,250

        The FY 2001 disaster reestimate of $498 million was booked in 2001, but was never apportioned by OMB
        and has been netted with the FY 2002 reestimate of $420 million for the FY 2002 net result of ($78
        million.)

                                          Total Direct Loan Subsidy Expenses

                             FY 2002                                            FY 2001
         Loan Programs                   Total                  Loan Programs                    Total
        (1) Business               $        3,286            (1) Business              $             309
        (2) Disaster                      136,030            (2) Disaster                        639,850
        Total                      $      139,316             Total                    $         640,159
                                                                                                  Appendix A

F.   Subsidy Rates for Direct Loans by Program and Component:
     Budget Subsidy Rates for Direct Loans for the Current Year's Cohorts:

     (Dollars in Thousands)

                                                      FY 2002
        1. Direct Loans
             Loan                Interest
          Programs            Supplements      Defaults           Fees              Other            Total
        (1) Business          6.52%           0.26%           0.00%              0.00%            6.78%
        (2) Disaster          6.88%           8.18%           -1.59%             1.20%            14.67%

G.   Schedule for Reconciling Subsidy Cost Allowance Balances:
     (Dollars in Thousands)

                                              (Post - 1991 Direct Business )      (Post - 1991 Direct Disaster )
                                                FY 2002           FY 2001           FY 2002           FY 2001
        Beginning balance of the
          subsidy cost allowance               $     23,748       $   34,108       $ (144,283)       $ 505,445
        Add: subsidy expense for
          Direct loans disbursed during the
            reporting years by component:
          Interest rate differential costs            2,005              3,262         109,905         105,155
          Default costs (net of recoveries)             142                 48         110,274           40,847
          Fees and other collections                                                   (22,729)        (14,306)
          Other Subsidy Costs                                                            16,790           9,903
        Total of the above subsidy expense
          components                                  2,147              3,310         214,240          141,599
            Adjustments:
            Loans written off                         (121)              (100)        (108,981)       (161,843)
            Subsidy allowance
              amortization                         (13,345)           (5,828)         (404,549)       (645,929)
          Loss Allowance Adjustment                                     (712)                         (414,175)
          Subsidy Restatement                                         (4,028)                          (67,631)
        Ending balance of the subsidy cost
          allowance before reestimates               12,429           26,750          (443,573)       (642,534)
         Add or subtract subsidy
          reestimates by component:
        (a) Interest rate reestimate
        (b) Technical/ default reestimate             1,139           (3,002)          (78,210)         498,251
          Total of the above reestimate
            components                                1,139           (3,002)          (78,210)         498,251
        Ending balance of the subsidy cost
        allowance                             $      13,568       $   23,748       $ (521,783)       $(144,283)

                                            (Post - 1991 Guarantee Business)
                                                                           FY 2002                FY 2001
        Beginning balance of the subsidy cost allowance                  $     162,563        $        86,339
        Adjustment related to the purchase of guaranteed loans                  47,817                 76,224
        Other                                                                                               0
        Ending balance of the subsidy cost
        allowance before reestimates                                     $     210,380        $         162,563
                                                                                                                     Appendix A


H. Defaulted Guaranteed Loans from Pre -1992 Guarantees:
   (Dollars in Thousands)

                                                                FY 2002
                             Defaulted
      Liquidating Loan                                                                                         Defaulted
                          Guaranteed Loans       Interest             Allowance for           Foreclosed
         Guarantee                                                                                          Guaranteed Loans
                            Receivable,         Receivable            Loan Losses              Property
         Programs                                                                                            Receivable, Net
                               Gross
      (1) Business            $      323,576        $       8,942      $   (116,212)           $    756          $     217,062
      (2) Pollution                   48,702                  415            (33,064)                                  $16,053
      Total                   $      372,278        $       9,357     $    (149,276)           $    756       $        233,115


I.    Defaulted Guaranteed Loans from Post-1991 Guarantees:
      (Dollars in Thousands)

                                                                FY 2002
                                                                                                            Net Present Value
                            Defaulted
      Credit Reform                                                                    Allowance for        of Assets Related
                         Guaranteed Loans        Interest            Foreclosed
      Loan Guarantee                                                                   Subsidy Cost            to Defaulted
                           Receivable,          Receivable            Property
         Program                                                                      (Present Value)          Guaranteed
                              Gross
                                                                                                            Loans Receivable
      (1) Business        $       1,458,966     $           5,947     $ 13,387            $     (210,380)        $    1,267,920

J.    Guaranteed Loans:
      (Dollars in Thousands)

      Guaranteed Loans Outstanding:
                                         FY 2002                                                    FY 2001
                           Outstanding                    Amount of              Outstanding                   Amount of
                            Principal,                   Outstanding              Principal,                  Outstanding
      Loan Programs        Guaranteed                     Principal              Guaranteed                    Principal
                         Loans Receivable,              Guaranteed By          Loans Receivable,             Guaranteed By
                            Face Value                      SBA                  Face Value                      SBA
      (1) Business            $   50,089,639                $    40,440,908           $       46,605,001      $      37,452,750
      (2) Pollution                   12,207                         12,207                       15,921                 15,921
      Total                   $   50,101,846            $        40,453,115       $           46,620,922     $       37,468,671

      New Guaranteed Loans Disbursed:
      (Dollars in Thousands)
                                    FY 2002                                                           FY 2001
                            Outstanding                                             Outstanding
                                                        Amount of                                                Amount of
                             Principal,                                              Principal,
                                                       Outstanding                                              Outstanding
      Loan Programs         Guaranteed                                              Guaranteed
                                                        Principal                                                Principal
                          Loans Receivable,                                       Loans Receivable,
                                                    Guaranteed By SBA                                        Guaranteed By SBA
                             Face Value                                             Face Value
      (1) Business                $12,904,326                    $10,308,950                  $11,298,036              $8,899,482
                                                                                               Appendix A


K.   Liability for Loan Guarantees:
     (Dollars in Thousands)

                                                          FY 2002
                                                      Liabilities for Loan
                            Liabilities for Loan        Guarantees for
                                                                                     Total Liabilities for
       Loan Programs        Guarantees For Pre-            Post-1991
                                                                                      Loan Guarantees
                             1992 Guarantees               Guarantees
                                                        (Present Value)
      (1) Business                $       115,556         $       1,409,339              $       1,524,895
      (2) Pollution
      (3) Disaster                            143                                                      143
      Total                      $        115,699         $          1,409,339           $       1,525,038

                                                          FY 2001
                                                      Liabilities for Loan
                            Liabilities for Loan        Guarantees for                 Total Liabilities
       Loan Programs        Guarantees For Pre-            Post-1991                      for Loan
                             1992 Guarantees               Guarantees                   Guarantees
                                                        (Present Value)
      (1) Business                $       359,746         $       1,076,583              $       1,436,329
      (2) Pollution                           525                                                      525
      (3) Disaster                            143                                                      143
      Total                      $        360,414         $          1,076,583           $       1,436,997



L.    Subsidy Expense for Post-1991 Loan Guarantees:
      (Dollars in Thousands)
      Subsidy Expense for New Loan Guarantees

                                               FY 2002
       Loan Program          Defaults          Fees                   Other                     Total
      Business             $    483,037     $ (339,382)         $        (21,288)        $         122,367

                                               FY 2001
       Loan Program         Defaults           Fees                   Other                     Total
      Business               $603,946       $ (376,632)         $        (72,457)        $         154,857

                                          Reestimates FY 2002
                                                                 Technical                      Total
       Loan Program                                             Reestimates                  Reestimates
                                                                               $
      Business                                                           412,001         $         412,001

                                          Reestimates FY 2001
                                                                     Technical                  Total
      Loan Programs                                                 Reestimates              Reestimates
      Business                                                         $ (282,874)            $ (282,874)

            Total Loan Guarantee Subsidy Expenses
                             FY 2002         FY 2001
       Loan Program           Total           Total
      Business             $   534,368      $ (128,017)
                                                                                                  Appendix A


M.   Subsidy Rates for Loan Guarantees by Program and Component:
     Budget Subsidy Rates for Loan Guarantees for the Current Year's Cohorts:

                                                   FY 2002

             Loan Programs                   Defaults        Fees               Other                Total
                Business

     7(a) and NAFTA                              4.38%       -3.23%                 -0.08%             1.07%
     7(a) Delta                                  5.04%       -3.23%                 -0.08%             1.73%

     504 Debentures                              2.46%       -5.35%                 2.89%              0.00%
     504 Delta                                   2.83%       -5.31%                 3.32%              0.84%

     SBIC Debentures                             9.04%       -3.00%                 -6.04%             0.00%
     SBIC Participating Securities               5.95%       -3.03%                 -2.92%             0.00%
     SBIC New Markets                           14.74%        0.00%                  0.00%            14.74%

     Microloan                                   1.76%           0.00%              6.41%              8.17%

N.   Schedule for Reconciling Loan Guarantee Liability Balances:
     (Post - 1991 Business Loan Guarantees)
     (Dollars in Thousands)

                                                                 FY 2002                         FY 2001
     Beginning balance of the loan guarantee liability       $       1,076,583               $        1,263,239
     Add: subsidy expense for guarantee loans disbursed
     during the reporting years by component:
        Default costs (net of recoveries)                              483,037                          603,945
        Fees and other collections                                   (339,382)                        (376,631)
        Other Subsidy Costs                                           (21,288)                         (72,456)
     Total of the above subsidy expense components                     122,367                          154,858
        Loans written off                                            (377,469)                        (265,776)
        Amortization of Subsidy                                        315,619                          338,786
        Loss Allowance Adjustment                                                                      (53,273)
        Restatement Subsidy                                              (95,102)
     Adjustment related to the purchase of guaranteed
     loans                                                               (47,816)                      (76,225)
        Other                                                               3,157                       (2,152)
     Ending balance of the subsidy cost
        allowance before reestimates                                     997,339                      1,359,457
     Add or subtract subsidy reestimates by component:
        Technical / default reestimate                                 412,001                        (282,874)
        Total of the above reestimate components                       412,001                        (282,874)
     Ending balance of the loan guarantee liability          $       1,409,340               $        1,076,583
                                                                                                   Appendix A


O.   Administrative Expense:
     (Dollars in Thousands)

                                              FY 2002
          Direct Loan                                 Loan Guarantees
           Programs                   Total               Program                     Total
     (1) Business                   $    23,374      Business                        $ 93,498
     (2) Disaster                        93,307
     Total                         $ 116,681

P.   Summary of Note 6B, 6C, 6H and 6I

                                                                                                 FY 2002

     Direct Loans Obligated Prior to FY 1992:                                                $        197,750
     Direct Loans Obligated After FY1991:                                                           3,770,700
     Defaulted Guaranteed Loans from Pre-1992 Guarantees:                                             233,115
     Defaulted Guaranteed Loans from Post-1991 Guarantees:                                          1,267,920
     Credit Program Receivables and Related Foreclosed Property                              $      5,469,485

Q.   Other Information:

     Part J of this note, for pre-1992 business loans, relates to outstanding gross amounts guaranteed for FY
     2002 of $1.1 billion and for FY 2001 of $1.5 billion. Of this amount, the Agency’s share for FY 2002 is
     $939 million and for FY 2001 is $1.5 billion. For Pollution Control Equipment Contract Guarantee Fund
     (PCECGF), the outstanding guarantees for FY 2002 total $12.2 million and for FY 2001 total $15.9
     million. This amount is both gross and Agency share. For post-1991 loans, the gross amount guaranteed
     for business loans for FY 2002 is $49 billion and for FY 2001 is $45.1 billion. The Agency’s share is
     $39.5 billion for FY 2002 and $36 billion for FY 2001.

     The SBA has outstanding loan commitments of $10.6 billion as of September 30, 2002, and $9.3 billion as
     of September 30, 2001. These figures are comprised entirely of post-1991 commitments.

     The FY 2002 foreclosed property referred to in Parts B, C, H, and I is comprised of $21.03 million of real
     estate outstanding on 75 loans and $919 thousand of other property outstanding on 17 loans. The average
     number of days for the outstanding foreclosed property was 532 days. The number of items in process as
     of September 30, 2002 was 16.

R.   Credit Program Subsidy:

     The subsidy rates disclosed pertain only to cohorts with outstanding balances in the current year. These
     rates cannot be applied to the direct loans and guarantee programs disbursed during the current reporting
     year to yield the subsidy expense. The subsidy expense for new loans reported in the current year could
     result from both current year cohorts and prior year's cohorts. The subsidy expense reported in the current
     year also includes reestimates.

     The Federal Credit Reform Act of 1990 requires that all agencies budget for the cost of credit programs by
     measuring the net present value of cash flows to and from the Government. Loans originated during the
     same fiscal year are assigned to a “cohort” which is funded by appropriations for that year. Extensive
     amounts of transactional loan data and accounting data are used to model the cash flows for the SBA
     programs, culminating in the development of a subsidy rate. The terms below refer to definitions provided
     in OMB Circular A -11, which provides direction on the preparation of the estimates, which are also known
     as subsidy rates.
                                                                                              Appendix A

The credit subsidy rate represents the present value cost of a given program to the Government, expressed
as a percentage of dollars of loan commitments of each loan or loan guarantee program. The process to
develop subsidy rate calculations is lengthy and complex, requiring unique data collection techniques and
analysis efforts for each program. The SBA develops its subsidy rates by creating models that incorporate
data on loan maturity, borrowers’ interest rates, fees, grace periods, interest subsidies (if appropriate),
delinquencies, default or purchase rates, recoveries, prepayments and borrower characteristics. Loan
receivable, net or the value of assets related to direct loans, is not the same as the proceeds that the SBA
would expect to receive from selling loans.

After the initial estimate is made for budgetary purposes, the estimations are updated each year. These are
known as reestimates. For scheduling purposes, the SBA conducts these reestimates using information as
of June 30, which is then annualized. Changes in any subsidy rate after the cohort has been funded result in
the submission of funds to or receipt from the U.S. Treasury under this reestimate.

Guarantee Programs

The 7(a) General Business Loan Guarantee Program

The following table shows the latest reestimate of subsidy rates for the 7(a) program for all cohorts
originated under the requirements of the Federal Credit Reform Act. The total subsidy cost, presented on
the left, is the sum of the components for the interest subsidy costs, default costs (net of recoveries), fees
and other collections, and other costs. The SBA has prepared these estimates for cohorts in the current
year's budget for the current and past years’ cohorts. Each subsidy rate represents the cost, a percentage of
the amount of guaranteed loans obligated in the cohort. Negative percentages indicate that the Government
currently expects a positive cash flow for that cohort. (Note: sometimes components or their sums are
rounded).


                    Original                                   Current reestimate of
Cohort Year       Subsidy Rate                           Subsidy Rate and Components
                     Total                Total          Interest              Default           Fee/Other
      1992              4.85               1.62              0.00                 3.15               (1.53)
      1993              5.47               0.82              0.00                 2.54               (1.72)
      1994              2.15               0.81              0.00                 2.69               (1.88)
      1995              2.74               1.81              0.00                 3.62               (1.81)
      1996              2.74               0.40              0.00                 3.55               (3.15)
      1997              1.93               0.22              0.00                 3.38               (3.16)
      1998              2.14               0.41              0.00                 3.69               (3.28)
      1999              1.39               0.46              0.00                 3.71               (3.25)
      2000              1.16               0.28              0.00                 3.75               (3.47)
      2001              1.16               1.22              0.00                 4.68               (3.46)
      2002              1.07               0.04              0.00                 4.06               (4.02)


7(a) loan performance is affected by economic conditions, legislation, credit origination and servicing
policies. In order to more accurately forecast the costs of the program, the SBA intends to implement a
new model next year which will use loan mix and economic conditions to adjust its cost estimates.

During 2002, default costs increased from prior estimates for the cohorts originating from FY 1993 through
FY 1998. SBA’s management has attributed this to the effect of the National economic cycle. The most
recent cohorts, which remain volatile due to their lack of seasoning, experienced a fall in default costs
resulting from updated projected default data.

Fee income rose slightly from the prior year. Fee income can be affected by many items, including the rate
of prepayments, defaults and the mix in volumes. It appears that lower defaults in the past have increased
the level of fees to date.
                                                                                               Appendix A

The SBA’s subsidy account is entitled to 2 fees from loan guarantees: an upfront “guarantee fee” and an
annual servicing fee. Since 1992, fees have increased as a result of changes in the statutory fee rates. Prior
to the enactment of Credit Reform, the fee on loan guarantees was 1% on the SBA share of loans of
$75,000 or less and 2% on the remaining loans. In 1996, Congress changed this to a layered fee schedule
referenced in 13 CFR 120. Under this regulation, fees on loans with a maturity of greater than 12 months
increased to a minimum of 2% and a maximum of 3.875%. Under legislative mandate, for new loans made
following December 2000, 25% of fees on smaller loans (those under $150,000) may be retained by the
originating lender. Additionally, the maximum rate was lowered to 3.5%.

In 1993, Congress enacted legislation mandating a servicing fee amounting to 40 basis points of the annual
outstanding balance, accruing to the subsidy account, on the outstanding balance of all loans sold in the
secondary market. In 1996, this was extended to all loans, and increased to 50 basis points. In general, this
has caused rates to fall from the original projection.

In FY 2001, congress enacted legislation mandating a prepayment penalty for long term loans that prepay
in the first 3 years after disbursement. To date, the Agency has collected less than $1 million for this fee.

504 Loans – The Certified Development Program

The following table shows the latest reestimate of subsidy rates for the 504 program for all cohorts
originated under the requirements of the Federal Credit Reform Act. The total subsidy cost is the sum of
the components for the interest subsidy costs, default costs (net of recoveries), fees and other collections,
and other costs. The SBA has prepared these estimates for loan guarantees in the current year’s budget for
the current and past years’ cohorts. Each subsidy rate represents the cost, in the percentage of the
guaranteed loans amount obligated in the cohort.

                     Original                                Current reestimate of
Cohort Year        Subsidy Rate                         Subsidy Rate and Components
                      Total             Total             Interest             Default            Fee/ Other
    1992               0.49              3.65               0.00                 3.53                0.12
    1993               0.54              2.27               0.00                 2.35               (0.08)
    1994               0.51              3.11               0.00                 2.90                0.21
    1995               0.57              2.98               0.00                 3.66               (0.68)
    1996               0.00              2.36               0.00                 3.78               (1.42)
    1997               0.00             (2.49)              0.00                 4.45               (6.94)
    1998               0.00             (2.07)              0.00                 4.59               (6.66)
    1999               0.00             (0.77)              0.00                 5.48               (6.26)
    2000               0.00              0.43               0.00                 5.20               (4.77)
    2001               0.00              0.49               0.00                 5.91               (5.42)
    2002               0.00              0.51               0.00                 4.99               (4.48)

The performance of this loan guarantee program is affected by economic conditions, legislation, credit
origination and servicing policies. For most of the cohorts, the current reestimated subsidy rates were
higher than the previous year’s reestimates. This was primarily due to higher actual defaults reported in FY
2002 reflecting in part the effects of the economic slowdown experienced during the year.
                                                                                            Appendix A


Small Business Investment Companies – The Debentures Program

The following table shows the latest reestimate of subsidy rates for the SBIC Debentures program for all
cohorts originated under the requirements of the Federal Credit Reform Act. The total subsidy cost is the
sum of the components for the interest subsidy costs, default costs (net of recoveries), fees and other
collections, and other costs. The SBA has prepared these estimates for loan guarantees in the current year’s
budget for the current and past years’ cohorts. Each subsidy rate represents the cost, in the percentage of
the guaranteed loans amount obligated in the cohort.

                     Original                             Current reestimate of
Cohort Year        Subsidy Rate                      Subsidy Rate and Components
                      Total            Total           Interest            Default           Fee/Other
   1992               14.29            16.01             0.00               16.92              (0.91)
   1993               15.40             9.62             0.00               10.54              (0.92)
   1994               16.25             0.37             0.00                1.79              (1.42)
   1995               14.65            (0.34)            0.00                1.19              (1.53)
   1996               15.46             1.35             0.00                2.89              (1.54)
   1997                3.19            (4.23)            0.00                4.72              (8.95)
   1998                1.94            (0.24)            0.00                9.89             (10.13)
   1999                1.38             2.63             0.00               12.72             (10.09)
   2000                0.00            (2.10)            0.00                8.76             (10.86)
   2001                0.00            (2.02)            0.00                8.55             (10.57)
   2002                0.00            (2.09)            0.00                9.03             (11.12)

The performance of this loan guarantee program is affected by economic conditions, legislation, credit
origination and servicing policies. Overall, program costs arising from defaults remain covered by inflows
generated from annual fees.

Small Business Investment Companies – The Participating Securities Program

The following table shows the latest reestimate of subsidy rates for the SBIC Participating Securities
program for all cohorts originated under the requirements of the Federal Credit Reform Act. The total
subsidy cost is the sum of the components for the interest subsidy costs, default costs (net of recoveries),
fees and other collections, and other costs. The SBA has prepared these estimates for loan guarantees in
the current year’s budget for the current and past years’ cohorts. Each subsidy rate represents the cost, in
the percentage of the guaranteed loans amount obligated in the cohort.

                    Original                                  Current reestimate of
Cohort Year       Subsidy Rate                           Subsidy Rate and Components
                     Total               Total             Interest           Default           Fee/ Other
   1994               9.00              (15.19)              0.00               1.47             (16.66)
   1995               8.90               (4.19)              0.00               6.13             (10.32)
   1996               9.00               (6.68)              0.00               6.88             (13.56)
   1997               3.29                5.11               0.00              12.64              (7.53)
   1998               2.20                3.85               0.00               9.88              (6.03)
   1999               2.19               10.60               0.00               8.96               1.64
   2000               1.80                4.15               0.00               8.48              (4.33)
   2001               1.31               (4.89)              0.00               7.04             (11.93)
   2002               0.00               (4.24)              0.00               7.04             (11.28)

Participating Securities loan performance is affected by economic conditions, legislation, credit
origination and servicing policies. Actual defaults increased mainly from forced redemptions on
outstanding securities purchased by the program office in FY 2002.
                                                                                                    Appendix A

     Direct Loan Programs

     The Disaster Loan Program

     The following table shows the latest reestimate of subsidy rates for the Disaster Loan program for all
     cohorts originated under the requirements of the Federal Credit Reform Act. The total subsidy cost is the
     sum of the components for the interest subsidy costs, default costs (net of recoveries), and other collections,
     and other costs. The SBA has prepared these estimates for direct loans in the current year’s budget for the
     current and past years’ cohorts. Each subsidy rate represents the cost, in the percentage of the amount of
     direct loans obligated in the cohort.

                           Original                                  Current reestimate of
      Cohort Year        Subsidy Rate                           Subsidy Rate and Components
                            Total               Total             Interest            Default             Other
         1992               33.93               32.71              14.79               14.17               3.75
         1993               20.58               25.10              13.08               8.65                3.38
         1994               22.99               20.43              14.94               3.88                1.61
         1995               31.54               21.62              15.21               5.00                1.42
         1996               28.08               20.70              12.75               3.90                4.04
         1997               20.02               19.92              12.16               2.18                5.57
         1998               23.46               15.06               8.53               2.59                3.94
         1999               22.36               17.89              10.26               7.72               (0.09)
         2000               22.20               19.03              13.03               7.44               (1.43)
         2001               17.46               12.29               6.49               6.18               (0.37)
         2002               14.67

     The performance of this direct loan program is affected by economic conditions, legislation, credit
     origination and servicing policies. During 2002, several modifications to the data processing methodology
     were incorporated, which resulted in slight upward revisions in comparison to 2001. The 2002 reestimates
     also incorporate the impact of asset sales. For almost all cohorts, 2002 reestimates continue to be lower
     than original estimates. Since disaster loans are disbursed over a period of years, reestimates are delayed
     by one year. Therefore, the 2002 cohort has not been reestimated.

S.   Loan Asset Sales:

     In 1999, the SBA implemented a program to sell loans in bulk sales. Most of the loans sold to date have
     been disaster loans, for home and business borrowers. The remaining loans sold have been SBA business
     loans, including 7(a) loan guarantees and 504 CDC loan guarantees.

     Two loan sales occurred in FY 2001. The SBA received $1.54 billion for over 49,000 loans with unpaid
     principal balance of $2.29 billion. A book loss occurred and was recognized in liquidating funds for Pre-
     1992 loans, and as a charge to the subsidy account for Federal Credit Reform loans.

     Two loan sales occurred in FY 2002. SBA received $861.7 million for approximately 58,700 loans with
     unpaid principal balance of $1.25 billion. During FY 2002, the General Accounting Office (GAO)
     reviewed SBA's asset sales and concluded that the Book Value Adjustment for the Post-1991 credit reform
     disaster loans was incorrectly calculated because it did not include all subsidy factors affecting loan
     valuation. The SBA recomputed the Book Value Adjustment per GAO's recommendation. The
     recomputation affected no amounts presented herein, since book value adjustment plus loan sale loss, no
     matter how allocated, total to the difference between unpaid principal balance of the sold loans and the
     amount of net proceeds received for them and are both closed to the subsidy allowance account for credit
     reform funds, per SFFAS #2, Accounting for Direct Loans and Loan Guarantees.
                                                                                                      Appendix A


NOTE 7. General Property and Equipment

      (Dollars in Thousands)

                                                      FY 2002
                                                                                                            Net
      Major Classes                                                   Cost          Amortization         Book Value
      Internal Use Software in Development                    $          1,786                           $    1,786

      Internal Use Software                                              7,563            (2,521)                5,042
                                                              $          9,349       $   (2,521)         $       6,828

      (Dollars in Thousands)
                                                      FY 2001
                                                                                                         Net
      Major Classes                                              Cost                                Book Value
      Internal Use Software in Development                   $       8,518                           $    8,518
                                                             $      8,518                            $    8,518
      Software was not in service as of September 30, 2001, therefore it has not been amortized for FY 2001.

NOTE 8. Advances

      (Dollars in Thousands)
                                                    FY 2002                                    FY 2001
                                        Intragovernmental             Public      Intragovernmental          Public
      Sec. 503 Debentures                   $       4,428                     $      $        2,496                    $
      Sec. 504 Debentures                                                11,881                                    7,507
      SBIC                                                              367,975                                  247,179
      Advances from Program Funds                   76,305
      Loss Allowance                                                                                               (978)
        Sub-Total before Eliminations      $         80,733           $ 379,856      $        2,496          $   253,708
      Eliminations                                 (76,305)
      Balance Sheet Total                  $          4,428       $     379,856      $        2,496          $   253,708

      When the SBA honors its guarantee agreement with an SBIC, any associated advances
      will be reclassified as receivables. It is estimated that the percentage of SBIC advances
      that may be reclassified as credit receivables to be approximately 20%. Of this
      percentage, only approximately 60% may be recoverable.


NOTE 9. Liabilities Not Covered by Budgetary Resources

      (Dollars in Thousands)
Intragovernmental

      Accounts Payable                                   FY 2002                                      FY 2001
                                                                                                         $
          Business Loan and Investment Fund          $            667,979                           88,762
          Disaster Loan Fund                                      461,099                          498,251
                                                                                                         $
         Sub-Total                                  $       1,129,078                              587,013
         Eliminations                                     (1,129,078)                            (587,013)
         Total                                       $              0                       $            0
      Accounts Payable is liability from Program Funds to Financing Funds for Subsidy Reestimates.
                                                                                                      Appendix A

        Other
          Business Loan and Investment Fund              $     254,359                        $         374,636
          Disaster Loan Fund                                    41,057                                        0
          Salaries and Expenses                                  5,470                                    5,363
          Sub-Total                                      $     300,886                        $         379,999
          Eliminations
          Total                                          $     300,886                        $         379,999

Intragovernmental Other for the Business Loan and Investment Fund and the Disaster Loan Fund is the downward
subsidy reestimate liability to Treasury. The Salaries and Expenses amount is the FECA liability.

            Total Intragovernmental                    $      300,886                                  $379,999

        Other Liabilities- Public Not Covered by Budgetary Resources

            FECA Actuarial Liability (Note 11)           $         31,487                               $32,255

            Other
              Business Loan and Investment                                                                    $
              Fund                                       $            395                                 1,912
              Disaster Loan Fund                                      226                                    44
              Salaries and Expenses                                21,244                                20,490
              Total                                      $         21,865                         $      22,446

                     Total Other Liabilities - Public Not Covered
                        by Budgetary
                        Resources                      $       53,352                        $           54,701

        Other for Business Loan and Investment Fund and Disaster Loan Fund is Prior Loans Outstanding on
        Acquired Collateral. The Salaries and Expenses amount is annual leave for all SBA employees.

NOTE 10. Debt
(Dollars in Thousands)
                                                                         FY 2002
                                             Beginning            New                                    Ending
                                                                                 Repayments
                                              Balance          Borrowings                                Balance
        Intragovernmental Debt:
        Borrowing from the Treasury         $ 10,086,452       $     2,451,887    $ (1,502,479)         $ 11,035,860
        Borrowing from Federal
            Financing Bank                        131,963                              (29,543)              102,420
        Total Intragovernmental Debt         $ 10,218,415      $     2,451,887    $ (1,532,022)         $ 11,138,280


                                                                         FY 2001
                                             Beginning            New                                    Ending
                                                                                 Repayments
                                              Balance          Borrowings                                Balance
        Intragovernmental Debt:
        Borrowing from the Treasury         $ 10,012,391       $      888,485     $   (814,424)         $ 10,086,452
        Borrowing from Federal
            Financing Bank                       159,164                               (27,201)              131,963
        Total Intragovernmental Debt        $ 10,171,555       $      888,485     $   (841,625)         $ 10,218,415



The FY 2002 new borrowings figure includes $284 million of borrowing authority that was carried over from the
prior fiscal year.
                                                                                            Appendix A


NOTE 11. FECA Actuarial Liability

       The future workers’ compensation estimates are generated from an application of
       actuarial procedures developed to estimate the liability for FECA benefits. The FECA
       actuarial liability includes the present value of the expected liability for employee death,
       disability, medical, and miscellaneous costs for approved compensation cases. It is
       estimated using the paid- losses extrapolation method calculated over the next 23 years.
       This method uses historical benefit payment patterns related to a specific incurred period
       to predict the entire payments related to that period. This is a non-current liability “non-
       intragovernmental” not covered by budgetary resources. FY 2002 liability is $31.5
       million and FY 2001 liability is $32.3 million.

NOTE 12. Other Liabilities
  (Dollars in Thousands)

                                                                            FY 2002
                                                      Non-Current            Current            Total
                                                       Liabilities          Liabilities       Liabilities
  1. Intragovernmental
  Payable to Special Receipt Fund                                 $     $         295,416     $    295,416
  Employment Taxes Payable                                                            854              854
  Unfunded FECA Liability                                                           5,470            5,470
  Due Federal Financing Bank                                   2,416                                 2,416
  Net Assets of Liquidating Funds
  Due to Treasury                                           641,127                                  641,127
  Advances from Other Agencies                                                      1,756              1,756
  Advances from Program Fund                                                       76,305             76,305
  Sub-Total before Eliminations                       $     643,543     $        379,801      $   1,023,344
  Eliminations                                                                   (76,305)           (76,305)
  Total Intragovernmental Liabilities – Other         $     643,543     $        303,496      $     947,039
  2. Liabilities – Public
  Accrued Funded Payroll Benefits                                 $     $           6,207     $       6,207
  Accrued Unfunded Annual Leave                                                    21,244            21,244
  Advances From Others                                                           (15,937)          (15,937)
  Cash Adjustments                                                                 27,972            27,972
  Suspense Accounts                                                               (2,241)           (2,241)
  Prior liens on Real Estate                                    620                                     620
  Deferred Credits – Interest Income                          3,224                                   3,224
  Contingent Liabilities                                     14,527                   800            15,327
  Total Public Liabilities – Other                    $      18,371     $          38,045     $      56,416

                                                                            FY 2001
                                                      Non-Current            Current            Total
                                                       Liabilities          Liabilities       Liabilities
  1. Intragovernmental
  Payable to Special Receipt Fund                                 $     $         374,636     $    374,636
  Employment Taxes Payable                                                          2,006            2,006
  Unfunded FECA Liability                                                           5,363            5,363
  Due Federal Financing Bank                                   2,823                                 2,823
  Net Assets of Liquidating Funds                                                                           0
  Due to Treasury                                          1,094,467                              1,094,467
  Total Intragovernmental Liabilities – Other         $    1,097,290    $         382,005     $   1,479,295
                                                                                                    Appendix A

2. Liabilities – Public
Accrued Funded Payroll Benefits                                           $       $       14,586       $      14,586
Accrued Unfunded Annual Leave                                                             20,490              20,490
Master Reserve Fund Liability                                        68,000                                   68,000
Cash Adjustments                                                                          26,564              26,564
Suspense Accounts                                                                          2,874               2,874
Prior liens on Real Estate                                            1,957                                    1,957
Deferred Credits – Interest Income                                      518                                      518
Contingent Liabilities                                               12,543                  800              13,343
Total Public Liabilities – Other                             $       83,018       $       65,314       $     148,332



     For FY 2001, the amount shown as “Public” under “Non-Current Liabilities” for BLIF consists primarily of
     a deferred credit of $68 million related to the Master Reserve Fund discussed in Note 1H.

     SBA recorded a contingent liability of $800,000 for claims that were reasonably possible to be realized.
     The SBA has estimated that its ultimate losses for contingent liabilities for other claims related to various
     administrative proceedings, legal actions, environmental suits, and claims brought against it may range
     from zero to $35 million.

     The FY 2001 current liabilities were restated to exclude the Non-entity fund balance with Treasury.
                                                                                                      Appendix A


NOTE 13. Statement of Net Cost

Federal cost accounting standards require the SBA to report operating costs by program activity. Full costs include
all direct and indirect costs consumed by a program. Full costs are reduced by exchange (earned) revenues to arrive
at net operating cost.

     1. Operating Cost

     The full and net operating costs of the SBA’s major programs are presented in the Consolidated Statement of
     Net Cost. Full program costs are comprised of all direct costs consumed by the program and those indirect
     costs which can be reasonably assigned or allocated to the program, including employee pension and other
     retirement benefit costs paid by the OPM and imputed by the SBA.

     2. Earned Revenue

     Earned revenues arise from exchange transactions which occur through the provis ion of goods and services for
     a price, and are deducted from the full cost of the SBA's major programs to arrive at net program cost. Earned
     revenues are recognized by the SBA when reimbursements are payable from other Federal agencies and from
     the public, as a result of costs incurred or services performed on their behalf. A major source of earned revenue
     includes interest earned on the SBA's outstanding Business and Disaster loan portfolios.

     3. Costs Not Assigned

     Costs Not Assigned are costs the Agency has determined are not properly allocable to programs such as the
     Office of Inspector General, Congressional Initiatives, and some grants for FY 2002.

     4. Earned Revenue Not Attributed to Programs

     Earned Revenue Not Attributed to Programs are revenues the Agency has determined are not properly allocable
     to programs such as the Office of Inspector General.
                                                                                             Appendix A

(Dollars in Thousands)
                                         2002             Eliminations            Consolidated                2001

Business Programs

Intragovernmental
    Gross Costs                      $     112,321         $   (116,872)           $     (4,551)          $    140,336
    Less: Earned Revenue                    32,148                                        32,148                71,489
    Net Costs                        $      80,173         $   (116,872)           $    (36,699)          $     68,847

Public
  Gross Costs                        $   1,004,517                       $         $   1,004,517         $     (23,910)
  Less: Earned Revenue                     177,379                                       177,379                 25,989
  Net Costs                          $     827,138                       $         $     827,138         $     (49,899)

Net Cost of Business Programs        $     907,311         $   (116,872)           $       790,439        $     18,948

Disaster Programs

Intragovernmental
   Gross Costs                       $     777,316         $      (93,307)         $       684,009        $    612,891
   Less: Earned Revenue                    435,879                                         435,879             467,093
   Net Costs                         $     341,437         $      (93,307)         $       248,130        $    145,798

Public
  Gross Costs                        $     330,940                       $         $       330,940        $    404,767
  Less: Earned Revenue                     257,708                                         257,708             128,340
  Net Costs                          $      73,232                       $         $        73,232        $    276,427

Net Cost of Disaster Programs        $     414,669         $      (93,307)         $       321,362        $    422,225

  Cost not assigned to programs      $      40,410                                 $        40,410        $     26,631
  Less: Earned revenue not
  attributed to programs                   226,931             (210,179)                    16,752               7,611

Net Cost not assigned to Programs    $   (186,521)         $      210,179          $        23,658        $     19,020

Net Cost of Operations               $ 1,135,459                         $         $   1,135,459          $    460,193



    (Dollars in Thousands)                                                   FY 2002
                                                                              Earned
Functional Classification                            Gross Cost                                  Net Cost
                                                                             Revenue

Commerce and Housing Credit                          $     999,966           $   209,527        $   790,439
Community and Regional Development                       1,055,359               710,339            345,020
Total                                                $   2,055,325           $   919,866        $ 1,135,459

                                                                             FY 2001
                                                                              Earned
Functional Classification                            Gross Cost                                  Net Cost
                                                                             Revenue

Commerce and Housing Credit                          $     116,426           $    97,478        $     18,948
Community and Regional Development                       1,044,289               603,044             441,245
Total                                                $   1,160,715           $   700,522        $    460,193
                                                               Appendix A

Business Programs
                                              2002                 2001
Business Loan Programs

Intragovernmental
   Gross Costs                           $          (30,509)   $          96,417
   Less: Earned Revenue                               31,385              55,021
   Net Costs                             $          (61,894)   $          41,396

Public
  Gross Costs                             $         296,241    $       (4,229)
  Less: Earned Revenue                               57,844             14,076
  Net Costs                               $         238,397    $      (18,305)

Total Net Cost                            $         176,503    $          23,091

Development Company Programs

Intragovernmental
   Gross Costs                            $           5,549    $          30,373
   Less: Earned Revenue                                 314                1,638
   Net Costs                              $           5,235    $          28,735

Public
  Gross Costs                             $          48,419    $      (54,568)
  Less: Earned Revenue                               39,590              3,353
  Net Costs                               $           8,829    $      (57,921)

Total Net Cost                            $          14,064    $      (29,186)

Small Business Investment Company (SBIC) Programs

Intragovernmental
   Gross Costs                           $          (31,629)   $        13,546
   Less: Earned Revenue                                  449            14,830
   Net Costs                             $          (32,078)   $       (1,284)

Public
  Gross Costs                             $         435,419    $      (14,401)
  Less: Earned Revenue                               79,941              5,913
  Net Costs                               $         355,478    $      (20,314)

Total Net Cost                            $         323,400    $      (21,598)

Surety Bond Guarantees Programs

Intragovernmental
   Gross Costs                            $             888                   $
   Less: Earned Revenue
   Net Costs                              $             888                   $

Public
  Gross Costs                             $          10,359    $       (7,711)
  Less: Earned Revenue                                    4              2,647
  Net Costs                               $          10,355    $      (10,358)

Total Net Cost                            $          11,243    $      (10,358)
                                                                   Appendix A

Business Development Programs

Intragovernmental
   Gross Costs                             $        12,359
   Less: Earned Revenue
   Net Costs                               $        12,359

Public
  Gross Costs                              $        51,726         $     49,902
  Less: Earned Revenue
  Net Costs                                $        51,726         $     49,902

Total Net Cost                             $        64,085         $     49,902

Government Contracting Programs

Intragovernmental
   Gross Costs                         $            5,104      $
   Less: Earned Revenue
   Net Costs                           $            5,104

Public
  Gross Costs                          $           21,361      $       21,366
  Less: Earned Revenue
  Net Costs                            $           21,361      $       21,366

Total Net Cost                         $           26,465      $       21,366

Entrepreneurial Development Programs

Intragovernmental
   Gross Costs                                 $      30,997
   Less: Earned Revenue
   Net Costs                                   $      30,997

Public
  Gross Costs                                  $     129,735       $    157,567
  Less: Earned Revenue
  Net Costs                                    $     129,735       $    157,567

Total Net Cost                                 $     160,732       $    157,567
                                                                                                        Appendix A

         Improving Business Environment

         Intragovernmental
            Gross Costs
              Office of Advocacy                         $           1,539
              National Advisory Council
              Ombudsman                                                588
              Office of Veterans' Affairs                              438
              Women's Business Council                                 125
            Gross Costs                                  $           2,690
            Less: Earned Revenue
            Net Costs                                    $           2,690

         Public
           Gross Costs
              Office of Advocacy                         $           6,440                                       $6,533
              National Advisory Council                                                                             160
              Ombudsman                                              2,461                                          954
              Office of Veterans' Affairs                            1,832                                        7,083
              Women's Business Council                                 524                                          694
           Gross Costs                                   $          11,257                                      $15,424
           Less: Earned Revenue
           Net Costs                                     $          11,257                                      $15,424

         Total Net Cost                                  $          13,947                              $        15,424

         Business Programs

         Intragovernmental
            Gross Costs                                      $     (4,551)                                  $   140,336
            Less: Earned Revenue                                    32,148                                       71,489
            Net Costs                                        $    (36,699)                                  $    68,847

         Public
           Gross Costs                                       $   1,004,517                                  $   (23,910)
           Less: Earned Revenue                                    177,379                                        25,989
           Net Costs                                         $     827,138                                  $   (49,899)

         Total Net Cost                                      $    790,439                                   $    18,948

The large increase in Net Costs for Development Company and Small Business Investment Company are due to
subsidy reestimates. The large increase in the BLIF is due to subsidy reestimates and the change in accounting for
guarantee liability.

NOTE 14. Disclosures Related to the Statement of Changes in Net Position

    The SBA's net position, as of September 30, 2002, consisted of the following:

    1.    Unexpended Appropriations

    Unexpended appropriations represent (1) unobligated amounts and (2) amounts for which orders for goods,
    services or benefits, have been placed, but not yet filled. Multi-year appropriations remain available to the SBA
    for obligation in future periods. Unobligated balances associated with appropriations that expire at the end of
    the fiscal year remain available for obligation adjustments, but not new obligations, until that account is closed,
    five years after the appropriations expire.

    The SBA's unexpended appropriations beginning balance was restated on the FY 2001 statement by $119.2
    million to cover period adjustments for the years occurring prior to FY 2001, and on the FY 2002 statement,
    prior period adjustments of $2 million were made for FY 2001. These prior period adjustments were made to
    reflect the change in accounting for the recording of subsidy expense and reimbursable activity.
                                                                                                      Appendix A


   2.           Cumulative Results of Operations

   Cumulative results of operations is the accumulated difference between expenses and financing sources s ince
   the inception of the SBA.

        The SBA restated the Cumulative Results of Operations beginning balance by ($541.5) million to cover
        prior period adjustments for the years occurring prior to FY 2001, and on the FY 2002 statement, prior
        period adjustments of ($1.4) million were made for FY 2001. These prior period adjustments were made to
        reflect the change in accounting for the recording of probable defaults on pre-credit loan guarantees from
        undelivered orders and reimbursable activity.

NOTE 15. Disclosures Related to the Statement of Budgetary Resources

        The Budget of the United States, the President's Budget, with actual numbers for the Fiscal Year 2002 has
        not yet been published. It is expected to be published February 4, 2003 and will be available via the
        internet at www.firstgov.gov or via written or telephone request to Office of Citizen Services and
        Communications, U.S. General Services Administration, 1800 F Street, NW Washington, DC 20405, 1-
        800-333-4636.

        SBA had no borrowing or contract authority at the end of FY 2002. SBA had borrowing authority of $284
        million and no contract authority at the end of FY 2001. Repayments of borrowings are made annually
        from collections received through the SBA's credit reform portfolio. Borrowing repayments are calculated
        using the guidance provided by OMB. The SBA has access to permanent indefinite appropriations for
        liquidating fund obligations and upward subsidy reestimates.

        The SBA incurred $5.08 billion of direct obligations of which $654.29 million was apportioned by fiscal
        quarters (type A apportionment) and the $4.45 billion was apportioned by fiscal year for (type B
        apportionment). The SBA adjusted their undelivered orders by ($31.7) million after the FACTS II revision
        period.

        The large decrease in the offsetting receipts in the amount of $702.8 million for FY 2002 was because of
        subsidy reestimates.

        Explanation of Material Differences Between the Statement of Budgetary Resources and the
        Statement of Budget Execution

        A reconciliation of budgetary resources, status of resources and outlays, as presented in the Combined
        Statement of Budgetary Resources, to the Statement of Budget Execution (SF133) for FY 2002 is shown
        below.

                                                 Budgetary Resources    Status of Resources           Outlays
        Consolidated Statement of
         Budgetary Resources                         $    11,824,684       $     11,824,684       $       2,085,532
        SF 133                                            11,858,316             11,858,316               2,083,531
              Difference                            $       (33,632)      $        (33,632)       $           2,001

        The change is due to an erroneous entry in FACTS II during the revision period to correct the reporting of
        asset sales activity.

NOTE 16. Disclosures Related to the Statement of Financing

  Imputed Financing includes an imputed cost of $6.37 million for pension benefits, $11.02 million for health
  benefits and $37 thousand for life insurance.

  The "Other" component of "Components of the Net Cost of Operations that will not Require or Generate
  Resources in the Current Period" are expenses to be funded in future periods.
                                                                                                       Appendix A

   The Balance Sheet reflects the account balances for liabilities not covered by budgetary resources as described in
   Note 9. The Statement of Financing reflects changes from period-to-period in those unfunded liabilities in the
   section titled “Components of the net cost of operations that will not require or generate resources in the current
   period.”

NOTE 17. Disclosure Related to Restatement of FY 2001 Financial Statements

Issue 1: Fund Balance with Treasury
           The SBA determined that the non-entity assets in the amount of $1.8 billion included on the SBA's 2001
           Consolidated Balance Sheet should not have been reflected on its statements.

Issue 2: Subsidy Approval vs. Disbursed
           The SBA corrected a longstanding problem caused by recording subsidy expense at the time of loan
           approval rather than disbursement.

Issue 3: Invalid Undelivered Orders Recorded in the Liquidating Funds
           The SBA changed its recognition of probable defaults on loan guarantees from undelivered orders
           (funded) to a contingent liability (unfunded). This is result of reconsideration of SFFAS 2.

Issue 4: Federal / Nonfederal
           The SBA restated some items from federal to nonfederal and vice versa.

Issue 5: Change in Reporting Line
           The SBA changed the presentation of certain financial data to more accurately reflect the nature of the
           underlying activity according to our current understanding of OMB's Form and Content guidance.

             Below is a summary of the items by principal statement that were restated for FY 2001. The issue
             number corresponds to the issue number directly above.

(Dollars in Thousands)
  Balance Sheet                                Issue            As Reported           Adjustment              Restated

Fund Balance with Treasury                       1              $    10,169,491      $ (1,832,836)         $ 8,336,655
Accounts Receivable                              2                      376,087             (6,774)            369,313
Credit Program Receivables                       2                    5,051,123            167,151           5,218,274
Accounts Payable                                 2                    (698,233)                  43          (698,190)
Other Intragovernmental Liabilities              1                  (1,832,836)          1,832,836
Other Intragovernmental Liabilities              3                  (1,833,486)            354,191            (1,479,295)
 Total Other Intragovernmental Liabilities                          (3,666,322)          2,187,027            (1,479,295)
Liabilities for Loan Guarantees                  2                                       (354,191)
Liabilities for Loan Guarantees                  3                                              214
 Total Liabilities for Loan Guarantees                              (1,083,020)          (353,977)            (1,436,997)
Unexpended Appropriations                        2                      882,641            160,633              1,043,274

Statement of Net Cost

Business Programs
Intragovernmental Gross Costs                    4              $        2,933        $    137,403        $      140,336
Intragovernmental Earned Revenue                 4                      78,207              (6,718)               71,489

Gross Costs with the Public                      2                                          (5,165)
Gross Costs with the Public                      3                                        (187,260)
Gross Costs with the Public                      4                                        (137,402)
 Total Gross Costs with the Public                                     305,917            (329,827)              (23,910)
Earned Revenue from the Public                   4                      19,272                6,717                25,989
                                                                                         Appendix A

Disaster Assistance Programs
Intragovernmental Gross Costs               4           838,565             (225,674)            612,891
Intragovernmental Earned Revenue            4           436,414                30,679            467,093

Gross Costs with the Public                 2                                (36,254)
Gross Costs with the Public                 4                                 225,674
 Total Gross Costs with the Public                      215,347               189,420            404,767
Earned Revenue from the Public              4           159,018              (30,678)            128,340

Statement of Changes in Net Position

Prior Period Adjustments                    2                          $      119,214
Prior Period Adjustments                    3                               (541,451)
 Total Prior Period Adjustments                                             (422,237)          (422,237)
Transfers – In/Out W/O Reimbursement        3         (275,827)              (23,856)          (299,683)
Other – Current Year Liquidating Equity
                                            5                                 378,045            378,045
    Activity (+/-)
Net Cost of Operations                      2                                (41,418)
Net Cost of Operations                      3                               (187,260)
 Total Net Cost of Operations                           688,871             (228,678)            460,193

Statement of Budgetary Resources

Unobligated Balance Brought Forward         3    $    6,853,339        $      541,451     $    7,394,790
Recoveries of Prior Year Obligations        3           617,611             (501,390)            116,221
Obligations Incurred                        3         4,727,794             (314,134)          4,413,660
Unobligated Balances Not Available          3         4,539,529               354,270          4,893,799
Obligated Balance, Beginning of Period      3         1,405,433             (541,451)            863,982
Accounts Receivable                         2         (602,437)               166,763          (435,674)
Accounts Payable                            2         1,082,682             (160,028)            922,654
Undelivered Orders, End of Period           2
Undelivered Orders, End of Period           3                               (354,192)
 Total Undelivered Orders, End of Period              1,051,229             (194,163)            857,066

Statement of Financing

Obligations Incurred                        3   $     4,727,794    $        (314,134)     $    4,413,660
Spending Authority from Offsetting
                                            3         4,046,114             (501,390)          3,544,724
Collections and Recoveries
Transfers In (Out)                          3         (275,827)              (23,856)          (299,683)
Other Financing Sources                     5                                 378,045            378,045
Change in Amount of Goods, Services and
                                            3         (115,344)             (180,526)          (295,870)
Benefits Ordered But Not Yet Provided
Budgetary Offsetting Collections and
Receipts that do not Affect Net Cost of     5         3,988,329            (1,273,441)         2,714,888
Operations
Resources that Finance the Acquisition of
                                            5        (2,424,438)            1,106,080         (1,318,358)
Assets or Liquidation of Liabilities
Adjustments to Net Obligated Resources
                                            3           299,720               119,215            418,935
That Do Not Affect Net Cost of Operations
Change in Due to Treasury - Liquidating
                                            3          (23,856)             (354,189)          (378,045)
Funds
Provision for Losses on Estimated
                                            3          (32,007)             (187,260)          (219,267)
Guarantees
                         Appendix A




Required Supplementary
     Stewardship
      Information

  U.S. Small Business
    Administration

          for
   Fiscal Year 2002
                                                                                                                       Appendix A


                                                  U. S. Small Business Administration
                                       Required Supplementary Stewardship Information
                                          Stewardship Investments in Human Capital
                                   for the periods ended September 30, 2002, 2001, 2000, 1999 and 1998

(Dollars in Thousands)
                                                                   2002           2001          2000        1999           1998
  Office of Small Business Development Centers                    $ 98,721       $ 98,583      $ 88,162    $ 79,078         $79,735
  Business Information Centers                                       13,816         16,015        11,719       7,832          8,023
  Office of Women’s Business Ownership                               15,892         15,934         6,488      12,085          7,978
  One Stop Capital Shops                                                  0          8,114         8,495       5,137          2,052
  Other Business Initiatives                                         11,870          6,050         4,900       4,254          4,943
  Service Corps of Retired Executives                                14,789          5,988         8,210       9,236          8,617
  Office of International Trade                                       2,984          2,955                     5,769          6,178
  Business Linc                                                           0          2,518
  Office of Native American Affairs                                     843          1,394         1,748       2,504           392
  Welfare to Work                                                         0              8         2,034       2,988
  Disability Initiative                                                 130              8
  Electronic Government                                                 649
  Egypt, Nigeria - Reimbursed Expenses                                  973
  BATF donations - Reimbursed Expenses                                   65
  Office of Veterans' Affairs (1)                                                                  2,776       2,862          1,566
  Ombudsman(1)                                                                                     1,507       3,396
  Women's Business Council (1)                                                                     1,106         693
  HubZones Program (1)                                                                             6,734       4,872
  Small Business Innovation and Research (1)                                                                   3,597             56
  Total                                                          $ 160,732      $ 157,567      $ 143,879   $ 144,303      $ 119,540




Human Capital. Human Capital investments are expenses included in net cost for education and training programs that are intended
to increase or maintain national economic productive capacity and that produce outputs and outcomes that provide evidence of
maintaining or increasing national productive capacity. The definition excludes education and training expenses for Federal
personnel.

A detailed description of the programs, outputs, and outcomes may be found in the Government Performance and Results Act (GPRA)
Details portion of the Performance and Accountability Report.


Financial Reporting                                                                                                             66
                                                                                                                          Appendix A



Office of Small Business Development Centers delivers management and technical assistance, economic development and
management training to existing and prospective small businesses through cooperative agreements with universities and colleges and
government organizations.

Business Information Centers (BICs) provide a one-stop location where current and future small business owners can receive
assistance and advice. Through partnerships with the public and private sector, BICs offer the latest computer technology, hardware
and software, as well as extensive small business reference library of hard copy books and publications and current management
videotapes for entrepreneurs. At a BIC they can plan their business, expand an existing business, or venture into new business areas.
The use of software for a variety of business applications offers clients of all types a means for addressing diverse needs.

Office of Women’s Business Ownership provides assistance to women business owners and acts as their advocate in the public and
private sectors.

One Stop Capital Shops comb ines SBA resources and community partnerships to offer entrepreneurial development assistance to
small businesses located in distressed inner cities and rural communities.

Other Business Initiatives include Youth Entrepreneurship, Classroom and e-commerce, and PRIME.

Service Corps of Retired Executives is a nonprofit organization which provides small business counseling and training under a grant
from the U.S. Small Business Administration (SBA). SCORE members are successful, retired business men and women who
volunteer their time to assist aspiring entrepreneurs and small business owners. There are SCORE chapters in every state.

Office of International Trade oversees and delivers SBA's business development and financing programs for small business
exporters.

Business Linc On June 5, 1998 the BusinessLINC initiative was announced to encourage more private sector business-to-business
linkages that enhance the economic vitality and competitive capacity of small businesses, particularly those located in economically
distressed urban and rural areas. The name conveys the full range of business-to-business assistance programs. The LINC acronym
stands for "Learning, Information, Networking, Collaboration." This is a joint effort between the Treasury and the SBA.

Office of Native American Affairs provides assistance to American Indian, Native Alaskan, and Native Hawaiian small business
clients, tribally owned small businesses, and small businesses located in Native American communities.



Financial Reporting                                                                                                                     67
                                                                                                                          Appendix A



Welfare to Work The SBA is helping small businesses gain access to a new pool of potential workers as well as helping former
welfare recipients become entrepreneurs. The enactment of the Personal Responsibility and Work Opportunity Reconciliation Act (PL
104-193) of 1996 along with the President's Welfare to Work Initiative have made this possible.

Disability Initiative The SBA is helping small businesses gain access to a new pool of potential workers as well as assisting
Americans with disabilities start small businesses.

(1) Office of Veterans' Affairs, Ombudsman, and Women's Business Council are now reported under "Improving Business
Environment". HubZones Program is currently reported under "Business Development". Small Business Innovation and
Research is reported under "Government Contracting".




Financial Reporting                                                                                                               68
                                                                                                                        Appendix A


                                                U. S. Small Business Administration
                                 Required Supplementary Stewardship Information
                               Stewardship Investments in Research and Development
                               for the periods ended September 30, 2002, 2001, 2000, 1999 and 1998

(Dollars in Thousands)
                                              2002                2001               2000                1999                1998
  The Office of Technology                $          1,103    $          1,906   $          1,720    $          3,597    $          56



Research and Development. Research and Development investments are expenses included in net cost incurred to support the search
for new or refined knowledge and ideas and for the application or use of such knowledge and ideas for the development of new or
improved products and processes with the expectation of maintaining or increasing national economic productive capacity or yielding
other future benefits.

A detailed description of the programs, outputs, and outcomes may be found in the Government Performance and Results Act (GPRA)
Details portion of the Performance and Accountability Report.




Financial Reporting                                                                                                                 69
                                            Appendix A




                 Required Supplemental
                      Information

                      U.S. Small Business
                        Administration

                              for
                       Fiscal Year 2002




Financial Reporting                                 70
                                                                                                                                     Appendix A


                                                         U. S. Small Business Administration
                                                   Required Supplementary Information
                                                  Intragovernmental Assets and Liabilities
                                                        for the period ended September 30, 2002



(Dollars in Thousands)

                                                                                                               Debt/Borrowings
                                       Fund Balance        Accounts                             Accounts                                   Other
          Trading Partner                                                        Advances                        from Other
                                       With Treasury       Receivable                           Payable                                  Liabilities
                                                                                                                   Agencies

Department of Defense                              $       $        347                     $              $                     $                     $
Federal Financing Bank                                                                 4,428         3,069               102,420                 2,416
Agency for International Development                                150                                                                            475
Department of Labor                                                                                                                              5,470
Office of Personnel Management                                           8                                                                         854
Department of the Treasury                  7,492,740                                               24,923             11,035,860              936,541
Other Agencies                                                          24                                                                       1,283
                                                                                                         $
Total                                   $   7,492,740     $         529      $         4,428                   $       11,138,280    $         947,039
                                                                                                    27,992
                                                                                                                       Appendix A


                                              U. S. Small Business Administration
                                             Required Supplementary Information
                                     Intragovernmental Earned Revenues and Related Costs
                                             for the period ended September 30, 2002
(Dollars in Thousands)

Trading Partner                                                Earned Revenue                             Gross Cost
Department of the Treasury                                      $      468,027                       $       800,400
Total                                                           $     468,027                        $      800,400

Budget Functional Classification
Commerce and Housing Credit                                     $      32,148                         $     685,515
Community and Regional Development                                    435,879                               114,885
Total                                                           $     468,027                        $      800,400




The Intragovernmental Earned Revenues and Related Costs are for the SBA’s Financing Accounts; therefore interest
earned is an offset to cost of operations.
                                                                                                                                         Appendix A


                                                          U. S. Small Business Administration
                                                    Required Supplementary Information
                                                 Combining Statement of Budgetary Resources
                                                         for the period ended September 30, 2002

(Dollars in Thousands)                                             BLIF                                            DLF                       SBGRF
                                                                      Non-Budgetary                                   Non-Budgetary
BUDGETARY RESOURCES                                Budgetary            Financing                  Budgetary            Financing         Budgetary
Budget Authority
Appropriations Received                            $    375,554                         $          $    284,714                      $                $
Borrowing Authority                                                               873,784                                    1,294,460
Net Transfers (+/-)                                     (29,545)                                         (2,500)

Unobligated Balance
Brought Forward October 1                               778,809                   453,329               439,239              5,683,647         25,506
Net Transfers (+/-)

Spending Authority from Offsetting Collections
Earned                                                   47,052                   783,502               134,628              1,751,149          5,722
Change in Unfilled Customer Orders                                                102,777                                       38,136

Recoveries of Prior Year Obligations                     26,246                     2,813                32,246               182,409
Temporarily Not Available Pursuant to
Public Law

Permanently Not Available                              (371,805)                 (17,004)              (308,492)           (1,485,468)

Total Budgetary Resources                          $    826,311       $        2,199,201           $    579,835      $       7,464,333   $     31,228
                                                                                                                            Appendix A


                                              U. S. Small Business Administration
                                             Required Supplementary Information
                                          Combining Statement of Budgetary Resources
                                             for the period ended September 30, 2002

(Dollars in Thousands)                                BLIF                                       DLF                             SBGRF
                                                             Non-Budgetary                             Non-Budgetary
STATUS OF BUDGETARY RESOURCES         Budgetary                                  Budgetary                                   Budgetary
                                                               Financing                                 Financing

Obligations Incurred                  $    404,332           $       1,656,299   $     394,526         $       1,978,703     $       5,628

Unobligated Balances Available
Apportioned - Currently Available           18,125                   1,058,503         240,559                 1,651,939            14,168
Exempt from Apportionment

Unobligated Balances
Not Yet Available                          403,854                   (515,601)       (55,250)                  3,833,691            11,432

Total Status of Budgetary Resources   $    826,311           $       2,199,201   $     579,835         $       7,464,333     $      31,228

(Dollars in Thousands)                                BLIF                                       DLF                             SBGRF
RELATIONSHIP OF                                              Non-Budgetary                             Non-Budgetary
OBLIGATIONS TO OUTLAYS                Budgetary                Financing         Budgetary               Financing           Budgetary
Obligated Balance,
Beginning of Period                   $    126,624           $         31,645    $      92,796         $         612,465     $           585
Obligated Balance, End of Period
Accounts Receivable                         (4,467)                    (5,202)       (12,123)                   (50,819)
Unfilled Customer Orders from
Federal Sources                                                      (102,777)                                  (38,136)
Undelivered Orders                         139,117                      25,680          38,217                   216,987
Accounts Payable                            45,381                     124,657          22,129                    58,029             1,106
Total Obligated Balance, End
of Period                                  180,031                     42,358           48,223                   186,061             1,106

Outlays
Disbursements                               386,573                  1,695,343       394,729                    2,509,271             5,106
Collections                               (108,948)                  (938,849)     (122,505)                  (2,075,858)           (5,722)
Subtotal                              $     277,625          $         756,494   $   272,224           $          433,413    $        (616)

Less: Offsetting Receipts                                             389,382                                     14,479
Net Outlays                           $    277,625           $        367,112    $     272,224         $         418,934     $       (616)
                                                                                                                                         Appendix A


                                                               U. S. Small Business Administration
                                                              Required Supplementary Information
                                                           Combining Statement of Budgetary Resources
                                                              for the period ended September 30, 2002

(Dollars in Thousands)                      PCECGF               SE            OIG          BATF         TOTAL            TOTAL

                                                                                                                      Non-Budgetary
BUDGETARY RESOURCES                         Budgetary        Budgetary     Budgetary       Budgetary    Budgetary                            Total
                                                                                                                        Financing
Budget Authority
Appropriations Received                     $     3,000      $   338,476   $    11,464             $    $ 1,013,208                 $      $ 1,013,208
Borrowing Authority                                                                                                         2,168,244        2,168,244
Net Transfers (+/-)                                                2,500                                                                      (29,545)
                                                                                                           (29,545)

Unobligated Balance:
Brought Forward October 1                         2,897           58,622             756         205      1,306,034         6,136,976        7,443,010
Net Transfers (+/-)

Spending Authority from Offsetting Collections
Earned                                              209          238,432             285         133       426,461          2,534,651        2,961,112
Change in Unfilled Customer Orders                                55,021              53                    55,074            140,913          195,987

Recoveries of Prior Year Obligations                              22,723             158                    81,373            185,222          266,595
Temporarily Not Available Pursuant to
Public Law

Permanently Not Available                        (2,898)         (8,254)             (6)                  (691,455)        (1,502,472)      (2,193,927)

Total Budgetary Resources                    $    3,208      $   707,520   $    12,710           338    $ 2,161,150   $     9,663,534      $11,824,684
                                                                                                                                   Appendix A


                                                       U. S. Small Business Administration
                                                      Required Supplementary Information
                                                   Combining Statement of Budgetary Resources
                                                      for the period ended September 30, 2002

(Dollars in Thousands)                PCECGF          SE               OIG             BATF         TOTAL           TOTAL
STATUS OF BUDGETARY                                                                                              Non-Budgetary
                                      Budgetary    Budgetary      Budgetary        Budgetary       Budgetary                           Total
RESOURCES                                                                                                          Financing

Obligations Incurred                   $       0    $ 632,733      $    12,104      $         75    $ 449,398    $     3,635,002     $ 5,084,400

Unobligated Balances Available
Apportioned - Currently Available          3,041       59,007                336          120         335,356          2,710,442       3,045,798
Exempt from Apportionment                                                                 104             104                                104

Unobligated Balances
Not Yet Available                           167         5,780                270              39      376,292          3,318,090       3,694,382

Total Status of Budgetary Resources   $    3,208    $ 707,520       $ 12,710       $      338      $ 2,161,150   $     9,663,534     $ 1,824,684
                                                                                                                                                Appendix A



                                                        U. S. Small Business Administration
                                                       Required Suppl ementary Information
                                                    Combining Statement of Budgetary Resources
                                                       for the period ended September 30, 2002
(Dollars in Thousands)              PCECGF                SE                OIG             BATF            TOTAL                TOTAL
RELATIONSHIP OF
                                                                                                                         Non-Budgetary
OBLIGATIONS TO OUTLAYS              Budgetary       Budgetary       Budgetary           Budgetary       Budgetary                                     Total
                                                                                                                           Financing
Obligated Balance,
Beginning of Period                     $      0        $ 311,203       $     1,956      $          9    $    533,173        $       644,110      $    177,283
Obligated Balance - End of Period
Accounts Receivable                                                                                           (16,590)              (56,021)
                                                                                                                                                       (72,611)
Unfilled Customer Orders from
Federal Sources                                                                                                                    (140,913)          (140,913)
Undelivered Orders                                        286,899                 737              14         464,984                242,667            707,651
Accounts Payable                                            6,872                 153                          75,641                182,686            258,327
Total Obligated Balance, End
of Period                                      0          293,771                 890              14         524,035                228,419           752,454

Outlays:
Disbursements                                             627,442            13,013                69        1,426,932             4,204,614          5,631,546
Collections                                 (209)       (293,453)             (337)                          (531,307)            (3,014,707)
                                                                                              (133)                                                (3,546,014)
Subtotal                            $       (209)   $     333,989   $        12,676     $      (64)     $     895,625    $         1,189,907      $ 2,085,532

Less: Offsetting Receipts                                                                                                            403,861          403,861
Net Outlays                         $       (209)   $     333,989   $        12,676     $      (64)     $     895,625    $           786,046      $ 1,681,671
                      Appendix A




Other Accompanying
    Information


U.S. Small Business
  Administration

        for

  Fiscal Year 2002
                                                                                                                                                                    Appendix A

                                                                               U. S. Small Business Administration
                                                                              Additional Accompanying Information
                                                                                    Consolidating Balance Sheet
                                                                              for the period ended September 30, 2002
(Dollars in Thousands)
                                                                                                                                                                       Combined
          ASSETS                               BLIF                     DLF                  SBGRF          PCECGF                   SE          OIG        BATF
                                                                                                                                                                         Total

Intragovernmental Assets
   Fund Balances with Treasury             $    1,187,270       $ 5,905,223                  $ 26,706            $ 3,209     $ 368,558          $ 1,496     $ 278      $ 7,492,740
   Accounts Receivable                            677,648           524,040                                                        529                                   1,202,217
   Advances                                        16,686            64,047                                                                                                 80,733

Total Intragovernmental                    $ 1,881,604          $        6,493,310           $ 26,706           $    3,209       $ 369,087       $ 1,496    $ 278      $ 8,775,690

Assets - Public and Other
  Cash                                             3,458                                                                                                                     3,458
  Accounts Receivable                             71,130                        86                5,141                                   589          28                   76,974
  Credit Program Receivables and Related
      Foreclosed Property, Net                  1,687,180                3,766,252                                  16,053                                                5,469,485
  General Property and Equipment, Net                                                                                                  6,828                                  6,828
  Advances                                        379,856                                                                                                                   379,856
Total Assets - Public and Other                 2,141,624          3,766,338                    5,141             16,053             7,417            28        0         5,936,601
Total Assets                             $      4,023,228       $ 10,259,648                 $ 31,847           $ 19,262         $ 376,504       $ 1,524    $ 278      $ 14,712,291

          LIABILITIES
Intragovernmental Liabilities
   Accounts Payable                        $      759,322           $      470,358                   $                  $                  $           $        $       $ 1,229,680
   Debt                                         1,396,087                9,742,193                                                                                       11,138,280
   Other                                          660,463                                                           19,262            84,333           54                 1,023,344

Total Intragovernmental                    $    2,815,872       $ 10,471,783                 $       0           $ 19,262        $ 84,333        $     54   $   0      $ 13,391,304

Other Liabilities -Public
  Accounts Payable                         $       77,116       $          70,897            $    1,114                 $        $          3    $     4        $      $    149,134
  Liabilities for Loan Guarantees               1,524,895                     143                                                                                         1,525,038
  FECA Actuarial Liability                                                                                                          31,487                                   31,487
  Other                                            24,098              4,938                   15,066                               12,052           262                     56,416
Total Other Liabilities -Public                 1,626,109             75,978                   16,180                   0           43,542           266        0         1,762,075
Total Liabilities                      $        4,441,981       $ 10,547,761                 $ 16,180            $ 19,262        $ 127,875       $   320    $   0      $ 15,153,379

          NET POSITION
Unexpended Appropriations              $          249,236       $          172,986        $ 289,001                     $     $ 297,535          $ 1,727        $      $ 1,010,485
Cumulative Results of Operations                (667,989)                (461,099)        (273,334)                             (48,906)           (523)      278       (1,451,573)
Total Net Position                     $        (418,753)   $            (288,113)       $ 15,667            $          0    $ 248,629          $ 1,204     $ 278     $ (441,088)

Total Liabilities and Net Position     $        4,023,228   $           10,259,648       $       31,847     $       19,262   $       376,504    $ 1,524     $ 278     $ 14,712,291
                                                                                                         Appendix A


                                            U. S. Small Business Administration
                                           Additional Accompanying Information
                                                 Consolidating Balance Sheet
                                           for the period ended September 30, 2002
(Dollars in Thousands)                                                                    Consolidated
           ASSETS                                    Eliminations                           TOTAL

Intragovernmental Assets
   Fund Balances with Treasury             $                                         $    7,492,740
   Accounts Receivable                              (1,201,688)                                 529
   Advances                                            (76,305)                               4,428

Total Intragovernmental                    $        (1,277,993)                      $    7,497,697

Other Assets -Public
Cash                                                                                          3,458
  Accounts Receivable                                                                        76,974
  Credit Program Receivables and Related
       Foreclosed Property, Net                                                           5,469,485
  General Property and Equipment, Net                                                         6,828
  Advances                                                                                  379,856
Total Other Assets -Public                                  0                             5,936,601
Total Assets                               $        (1,277,993)                      $   13,434,298

LIABILITIES
Intragovernmental Liabilities
   Accounts Payable                        $        (1,201,688)                      $       27,992
   Debt                                                                                  11,138,280
   Other                                               (76,305)                             947,039

Total Intragovernmental                    $        (1,277,993)                      $   12,113,311

Other Liabilities -Public
Accounts Payable                           $                                                149,134
Liabilities for Loan Guarantees                                                           1,525,038
FECA Actuarial Liability                                                                     31,487
Other                                                                                        56,416
Total Other Liabilities -Public                             0                             1,762,075
Total Liabilities                          $        (1,277,993)                      $   13,875,386

NET POSITION
Unexpended Appropriations                  $                                              1,010,485
Cumulative Results of Operations                                                         (1,451,573)
Total Net Position                         $                0                        $     (441,088)

Total Liabilities and Net Position         $        (1,277,993)                      $   13,434,298
                                                                                                                                            Appendix A


                                                       U. S. Small Business Administration
                                                      Additional Accompanying Information
                                                      Consolidating Statement of Financing
                                                      for the period ended September 30, 2002

(Dollars in Thousands)

                                       BLIF           DLF           SBGRF        PCECGF             SE            OIG           BATF            Total

Resources Used to Finance Activities
Budgetary Resources
  Obligated
  Obligations Incurred               $2,060,631   $    2,373,229    $   5,628    $        0     $   632,733   $   12,104    $          75   $ 5,084,400
  Less: Spending Authority from
    Offsetting Collections and
                                        962,390        2,138,568        5,722           209         316,176         496            133          3,423,694
    Recoveries
  Obligations Net of Offsetting
    Collections and Recoveries        1,098,241         234,661          (94)         (209)         316,557       11,608           (58)       1,660,706
  Less: Offsetting Receipts             389,382          14,479                                                                                 403,861
Net Obligations                      $ 708,859    $     220,182     $    (94)    $    (209)     $ 316,557     $ 11,608      $     (58)      $ 1,256,845

Other Resources
  Transfers In (Out)                  (224,352)         (38,775)                                                                                (263,127)
  Imputed Financing                                                                                  17,420                                        17,420
  Other Financing Sources             (242,047)           37,821                      (750)                                                     (204,976)
Net Other Resources Used to
  Finance Activities                $(466,399)    $         (954)   $       0    $    (750)     $    17,420   $         0   $           0   $ (450,683)
Total Resources Used to Finance
                                     $ 242,460    $     219,228     $    (94)    $    (959)     $   333,977   $ 11,608      $     (58)      $    806,162
   Activities
                                                                                                                                                   Appendix A


                                                          U. S. Small Business Administration
                                                         Additional Accompanying Information
                                                         Consol idating Statement of Financing
                                                         for the period ended September 30, 2002
(Dollars in Thousands)

                                         BLIF           DLF           SBGRF         PCECGF             SE            OIG             BATF             Total

Resources Used to Finance
    Items not Part of the Net
    Cost of Operations
  Change in Amount of Goods,
    Services and Benefits Ordered
                                     $     57,944   $      148,588             $              $    $    63,274   $         730   $          (5)   $      270,531
    But Not Yet Provided
  Budgetary Offsetting Collections
    and Receipts that Do Not
                                          783,502        1,751,149                                                                                     2,534,651
    Affect Net Cost of Operations
  Resources that Finance the
    Acquisition of Assets or
                                     (1,285,495)        (1,781,531)                         145        (3,351)                                        (3,070,232)
    Liquidation of Liabilities
  Other Resources or Adjustments
     to Net Obligated Resources
    That Do Not Affect Net Cost           (1,047)                                                        9,894             106          132                9,085
    of Operations
  Total Resources Used to
    Finance Items Not Part of
                                     $ (445,096)    $      118,206    $        0     $      145    $    69,817   $         836   $      127       $    (255,965)
    the Net Cost of Operations

  Total Resources Used to
    Finance the Net Cost of
                                     $ (202,636)    $      337,434    $     (94)    $     (814)    $   403,794   $    12,444     $          69    $      550,197
    Operations
                                                                                                                                       Appendix A


                                                                U. S. Small Business Administration
                                                               Additional Accompanying Information
                                                               Consolidating Statement of Financing
                                                               for the period ended September 30, 2002
(Dollars in Thousands)
                                                   BLIF           DLF           SBGRF         PCECGF        SE         OIG      BATF     Total
Components of the Net Cost of
     Operations that will not Require or
     Generate Resources in the Current
     Period
  Change in Annual Leave
     Liability                                                                                                   754                             754
  Increase in Unfunded Liability
     for Claims against SBA
  Upward/ Downward
     reestimates of Credit Subsidy Expense          579,218        (37,153)                                                               542,065
  Change in Revenue Receivable
     from Public                                     63,833             532           397            (15)    (320)       (28)              64,399
  Change in Due to Treasury -
     Liquidating Funds that is not an obligation    242,047        (37,821)                          750                                  204,976
  Provision for Losses on
     Estimated Guarantees                          (244,404)                        1,985           (526)                                (242,945)
  Unfunded Employee Benefits                                                                                 (661)                           (661)
  Components of the Net Cost of
                                                                                                                                                 Appendix A


                                                                 U. S. Small Business Administration
                                                               Additional Accompanying Information
                                                          Consolidating Statement of Changes in Net Position
                                                                for the period ended September 30, 2002
(Dollars in Thousands)
                                                           BLIF                                     DLF                                   SBGRF
                                           Cumulative Results    Unexpended         Cumulative Results   Unexpended        Cumulative Results    Unexpended
                                             of Operations      Appropriations        of Operations     Appropriations       of Operations     Appropriations
Beginning Balances                         $         (88,761)    $      228,640       $      (498,252)    $    198,318       $      (275,375)  $       293,330
    Prior Period Adjustments
Beginning Balances, as Adjusted                      (88,761)            228,640              (498,252)         198,318             (275,375)           293,330

Budgetary Financing Sources
   Appropriations Received                                               375,554                                284,714
   Appropriations
     Transferred -in/out (+/-)                                                                                   (2,500)
   Rescissions                                                            (5,500)
   Adjustment -Cancelled
     Authority                                                           (16,378)
   Other Adjustments
   Appropriations Used                               333,080           (333,080)               307,546         (307,546)               4,329             (4,329)
   Donations of Cash
   Transfers-in/out Without
     Reimbursement

Other Financing Sources
   Transfers-in/out Without
      Reimbursement                                 (224,352)                                  (38,775)
   Imputed Financing from
      Costs Absorbed by Others
   Other - Current Year
       Liquidating Equity Activity (+/-)            (242,047)                                   37,821
Total Financing Sources                    $        (133,319)   $         20,596      $        306,592     $    (25,332)     $         4,329    $        (4,329)

Less: Net Cost of
   Operations                               $        445,909                           $       269,439                        $        2,288

Net Position - End of
    Period                                  $       (667,989)   $        249,236      $       (461,099)   $     172,986       $     (273,334)   $       289,001
On the Consolidated Statement of Net Costs, the costs are reported by major program using the SBA's cost accounting study, while on this statement the costs are
reported by fund and are not allocated using the cost accounting study.
                                                                                                                                                                 Appendix A


                                                                  U. S. Small Business Administration
                                                                Additional Accompanying Information
                                                           Consolidating Statement of Changes in Net Position
                                                                 for the period ended September 30, 2002
(Dollars in Thousands)

                                                      PCECGF                                           SE                                           OIG
                                         Cumulative Results  Unexpended               Cumulative Results        Unexpended         Cumulative Results    Unexpended
                                           of Operations    Appropriations              of Operations          Appropriations         of Operations     Appropriations
Beginning Balances                       $                0  $            0           $          (16,638)       $     320,291       $            (524)  $         2,695
  Prior Period Adjustments                                                                        (1,399)               1,956
Beginning Balances, as Adjusted                              0                    0              (18,037)             322,247                      (524)                2,695

Budgetary Financing Sources
  Appropriations Received                                                    3,000                                      338,476                                        11,464
  Appropriations
    Transferred -in/out (+/-)                                                                                              2,500
  Rescissions                                                                                                              (479)                                           (6)
  Adjustment -Cancelled
  Authority                                                                                                              (7,776)
  Other Adjustments                                                         (3,000)                    273                    93                                          (9)
  Appropriations Used                                                                              357,526             (357,526)                 12,417              (12,417)
  Donations of Cash
  Transfers-in/out Without
  Reimbursement

Other Financing Sources
  Transfers-in/out Without
     Reimbursement
  Imputed Financing from
     Costs Absorbed by Others                                                                       17,420
  Other - Current Year
     Liquidating Equity Activity (+/-)                   (750)
Total Financing Sources                   $              (750)    $               0     $          375,219     $        (24,712)    $            12,417      $          (968)

Less: Net Cost of
  Operations                              $              (750)                          $          406,088                          $            12,416

Net Position - End of
  Period                                   $                  0     $             0 $             (48,906)    $         297,535      $             (523)     $           1,727
On the Consolidated Statement of Net Costs, the costs are reported by major program using the SBA's cost accounting study, while on this statement the costs are reported by
fund and are not allocated using the cost accounting study.
                                                                                                                                                                Appendix A


                                                                 U. S. Small Business Administration
                                                               Additional Accompanying Information
                                                          Consolidating Statement of Changes in Net Position
                                                                for the period ended September 30, 2002
(Dollars in Thousands)
                                                       BATF                              Eliminations                                       TOTAL
                                         Cumulative Results    Unexpended      Cumulative Results    Unexpended      Cumulative Results       Unexpended
                                                                                                                                                                   Total
                                           of Operations      Appropriations     of Operations      Appropriations     of Operations        Appropriations
Beginning Balances                       $             215    $            0   $                0   $            0   $         (879,335)    $     1,043,274       $ 163,939
Prior Period Adjustments                                                                                                         (1,399)    $         1,956             557
Beginning Balances, as Adjusted                        215                0                    0                0              (880,734)          1,045,230         164,496

Budgetary Financing Sources
  Appropriations Received                                                                                                                         1,013,208        1,013,208
  Appropriations
  Transferred -in/out (+/-)
  Rescissions                                                                                                                                        (5,985)         (5,985)
  Adjustment -Cancelled
  Authority                                                                                                                                          (24,154)       (24,154)
  Other Adjustments                                                                                                                  273              (2,916)        (2,643)
  Appropriations Used                                                                                                          1,014,898         (1,014,898)
  Donations of Cash                                    132                                                                           132                                   132
  Transfers-in/out Without
  Reimbursement

Other Financing Sources
   Transfers-in/out Without
    Reimbursement                                                                                                              (263,127)                          (263,127)
   Imputed Financing from
    Costs Absorbed by Others                                                                                                      17,420                             17,420
   Other - Current Year
     Liquidating Equity Activity (+/-)                                                                                         (204,976)                           (204,976)
Total Financing Sources                  $             132    $           0    $               0    $           0    $           564,620     $      (34,745)      $ 529,875

Less: Net Cost of
    Operations                           $              69                                                           $         1,135,459                         $1,135,459

Net Position - End of
    Period                               $             278    $           0    $               0    $           0    $        (1,451,573)    $    1,010,485      $ (441,088)

On the Consolidated Statement of Net Costs, the costs are reported by major program using the SBA's cost accounting study, while
on this statement the costs are reported by fund and are not allocated using the cost accounting study.
                                                                                     Appendix B




                                  U.S. SMALL BUSINESS ADMINISTRATION
                                           WASHINGTON, DC 20416




CFO Reply

DATE:          January 30, 2003

TO:            Robert Seabrooks, Assistant IG for Auditing

FROM:          Thomas Dumaresq, Chief Financial Officer

SUBJECT:       FY 2002 Financial Statement Audit Report

The Small Business Administration (SBA) is in receipt of the draft Independent Public
Accountant (IPA) reports from Cotton and Company, LLP, that include the auditor’s opinion and
separate reports on internal controls and compliance with laws and regulations. As you know,
the IPA audit of the Agency’s financial statements and related processes is a core component of
SBA’s financial management program.

Unfortunately, the results of this year’s audit process indicate that despite SBA’s commitment to
improved financial management, our efforts have not been sufficient to meet existing financial
management standards. The IPA has indicated that it is unable to satisfy itself that the SBA’s
financial statements fairly present the financial position of SBA as of September 2002 and 2001.
The IPA report cites three specific findings which have resulted in this disclaimed opinion: the
Disaster loan program model; treatment of pre-1992 loan guarantees; and measurement and
treatment of the Master Reserve Fund (MRF) residual liability.

Throughout the FY 2002 audit process, SBA worked closely with the IPA on the Disaster loan
program modeling issue. SBA management acknowledges the depth and breadth of the impact
that this issue has on the Agency’s financial statements and therefore accepts the IPA’s
conclusion that a disclaimed audit opinion on SBA’s financial statements is warranted given this
issue. SBA is working aggressively with OMB and an outside contractor to resolve the issue as
quickly as possible. We are conducting a very detailed review of the disaster budget models, the
hold model, and the accounting methodologies used for this direct credit program. In addition,
we are analyzing the interrelationships between these different models and procedures to ensure
consistency in approaches, assumptions and results.
                                                                                       Appendix B


SBA also worked closely with the IPA on the MRF residual liability measurement and treatment
during the FY 2002 audit process. While SBA made substantial progress in improving its
capacity to estimate the MRF residual liability this year, we agree with the IPA’s
recommendation that additional analysis should be completed and we are committed to
undertaking that analysis in the coming year. Nevertheless, because of the remote nature of this
potential liability, we do not agree that potential changes in the residual liability estimate would
be sufficient to materially change the financial statements. We believe classifying this as an
issue that merits a disclaimer opinion on SBA’s financial statements substantially overstates its
importance.

The treatment of SBA’s pre-1992 loan guarantees is an issue that was raised relatively late in the
audit process and has received comparatively less review by SBA and the IPA than the MRF and
asset sales issues. The IPA’s concern is with a decline in our reserves for loan guarantees made
prior to fiscal year 1992 and our inability to provide satisfactory reasons for that change. While
we agree that more clarity and documentation regarding our methodology for this calculation is
warranted, and we intend to provide it in subsequent years, we are not convinced that the issue
merits such a grave assessment.

The IPA’s Report on Internal Control identifies two material weaknesses in addition to those
described above. The two items include the financial reporting process and funds control
weaknesses. While SBA acknowledges that it still needs to make progress in all of these areas,
we believe that we did make meaningful improvements this year and that overall the process is
better and more rigorous than it has been in the past. In most cases, the “errors” identified by the
IPA are things that SBA had treated in a similar manner in prior years with no objection from the
IPA. While SBA agrees with the many theoretical accounting policy changes made this year, we
believe that the IPA’s decision to highlight so many of the items in their reports creates the false
impression that our financial statements and reporting process are weaker than they have been in
the past. In contrast, we see these results as evidence that our efforts and the audit process are
achieving their intended objectives – improving the accuracy and reliability of our financial
statements.

Moreover, we would note that the key issues that the IPA raised this year – the Disaster loan
program model, and the MRF – have been elements of SBA’s financial statements for several
years now and only this year has the IPA determined that these issues merit a “disclaimed”
opinion. It is not SBA’s treatment of these issues that has changed, but rather the IPA’s
perspective in reviewing them. As discussed above, we concur with the IPA’s recommendations
on these issues. However, we think it is important to note that the changed audit opinion does
not reflect a decline in the quality of our financial statements but rather a more in-depth
assessment by the auditor of what has been in our financial statements for at least the past several
years.

SBA’s view is that bringing these important financial management and reporting issues to light
so we can begin resolving them is a positive step forward for the Agency. SBA is strongly
committed to addressing all of the issues raised by the IPA and resolving them during the coming
year. We are committed to full compliance with all financial management laws, regulations, and
policies.
                                                                                    Appendix B



We appreciate all of your efforts and those of your colleagues in the Office of the Inspector
General as well as those of our IPA. While the audit process was very challenging this year, we
believe our efforts and the assistance we received from you and the IPA resulted in substantial
improvements in the quality of our financial statements and our financial management capacity,
which is our most important objective. With the additional improvements we plan to achieve in
the coming year, we believe we will be well positioned to achieve a “clean” audit opinion next
year.




                                            Thomas A. Dumaresq
                                            Chief Financial Officer
                                                         Appendix C


                                 REPORT DISTRIBUTION

Recipient                                              No. of Copies

Assistant Administrator
 Office of Congressional & Legislative Affairs                1

Associate Deputy Administrator
 Office of Capital Access                                     1

Associate Administrator
 Office of Disaster Assistance                                1

Chief Information Officer                                     1

Chief Financial Officer                                       1
 Attn: Jeff Brown

General Counsel                                               3

General Accounting Office                                     2
